<html>
<title> - KATRINA'S DISPLACED SCHOOL CHILDREN</title>
<body><pre>[Senate Hearing 109-214]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-214
 
                  KATRINA'S DISPLACED SCHOOL CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON EDUCATION AND EARLY
                         CHILDHOOD DEVELOPMENT

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON



 EXAMINING FEDERAL AND STATE EFFORTS TO MEET THE EDUCATIONAL NEEDS OF 
          STUDENTS AND FAMILIES DISPLACED BY HURRICANE KATRINA

                               __________

                           SEPTEMBER 22, 2005

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                    U.S. GOVERNMENT PRINTING OFFICE
23-696                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

       Subcommittee on Education and Early Childhood Development

                  LAMAR ALEXANDER, Tennessee, Chairman

JUDD GREGG, New Hampshire            CHRISTOPHER J. DODD, Connecticut
RICHARD BURR, North Carolina         TOM HARKIN, Iowa
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
officio)                             (ex officio)

                   Christine C. Dodd, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                      Thursday, September 22, 2005

                                                                   Page
Lott, Hon. Trent, a U.S. Senator from the State of Mississippi...     2
Landrieu, Hon. Mary, a U.S. Senator from the State of Louisiana..     3
    Prepared statement...........................................     5
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................    11
Dodd, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut, opening statement.................................    13
Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................    16
    Prepared statement...........................................    16
Johnson, Henry L., assistant secretary for elementary and 
  secondary education, U.S. Department of Education..............    18
    Prepared statement...........................................    30
LaFon, Rodney R., superintendent, St. Charles Parish Public 
  School System, and member, American Association of 
  Administrators Governing Board, Luling, LA; Daryl Gates, Middle 
  School Special Education Teacher, Youree Drive Middle School, 
  Shreveport, LA; Micahel Stein, president, board of directors, 
  Margolin Hebrew Academy, Memphis, TN, and Sister M. Michaeline 
  Green, O.P., Superintendent of Schools, Diocese of Baton Rouge, 
  LA, and chairperson, NonPublic School Commission, Louisiana 
  Department of Education, Baton Rouge, LA.......................    34
    Prepared statements of:
        Mr. LaFon................................................    38
        Mr. Gates................................................    41
        Mr. Stein................................................    43
        Sister Green.............................................    46

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    List of newspaper articles and photographs from the 
      Shreveport Times...........................................    51
    Mr. LaFon (Breakdown of costs for St. Charles Parish School).    58
    Kennedy, Hon. Edward M., a U.S. Senator from the State of 
      Massachusetts, prepared statement..........................    61
    Questions of Senator Enzi for Henry Johnson, Rodney LaFon, 
      Sister Mary Michaeline Green, Michael Stein, Daryl Gates, 
      and Panel 3................................................    62
    Response from Shelby County Schools, Tennessee...............    64
    Doris Voitier................................................    65

                                 (iii)

  


                   KATRINA'S DISPLACED SCHOOLCHILDREN

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2005

                                       U.S. Senate,
Subcommittee on Education and Early Childhood Development, 
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:02 p.m., in 
room SD-430, Dirksen Senate Office Building, Senator Alexander, 
chairman of the subcommittee, presiding.
    Present: Senators Alexander, Sessions, Enzi, Dodd, Reed, 
and Kennedy.
    Senator Alexander. Good afternoon. The Education and Child 
Development Subcommittee will come to order.
    I want to welcome you here, Chairman Enzi, Senator Kennedy, 
Senator Reed, and we have Senator Lott. I want to make a 
suggestion to the Senators. We have two votes which are 
scheduled to begin in about 5 minutes. Senator Lott is here now 
to make a short statement. Senator Landrieu is coming in a few 
minutes to make a short statement. I thought what we might do 
is go for about 20 minutes, and then adjourn the hearing for 
about 20 minutes, and come back.
    Would that fit your schedule, Senator Kennedy, Senator 
Reed? Because I think all of us want to hear the testimony, and 
I would like to take advantage because some of the witnesses 
have come a great distance to be here. We want to make sure as 
many Senators as possible can hear the witnesses testimony.
    I am going to abbreviate my opening statement to this point 
and let Senator Lott go first. I simply want to say to begin 
with, that Hurricane Katrina displaced over 1 million people, 
at least 20 times more than in any other disaster handled by 
the Federal Emergency Management Agency, and 372,000 of those 
displaced by Katrina are school-age children in kindergarten 
through the 12th grade. Another 73,000 are college students. 
Today in this hearing, at the request of Chairman Enzi, we are 
here to see how we can help all of Katrina's 370,000 displaced 
schoolchildren.
    I am hopeful that we could have a consensus on how to 
approach this, and that we can introduce legislation quickly 
and get on with it because the public and the private schools 
who are helping these children are hiring new teachers, renting 
new buses, and have many expenses. What we will do is we will 
hear from Senator Lott, and then we will hear from Senator 
Landrieu, who just came in. Then we will adjourn the hearing, 
at about 3:20 p.m. Then we will come back about 20 minutes 
later after all of us have a chance to cast those two votes.
    Senator Lott.

  STATEMENTS OF THE HON. TRENT LOTT, A U.S. SENATOR FROM THE 
STATE OF MISSISSIPPI; AND SENATOR MARY LANDRIEU, A U.S. SENATOR 
                  FROM THE STATE OF LOUISIANA

    Senator Lott. Thank you, Mr. Chairman, and it is a great 
pleasure to be here with my colleague from our neighboring 
State of Louisiana, Senator Landrieu. We are both dealing with 
problems of a magnitude we have never dealt with before, and it 
is incomprehensible until you have gone down and taken a look 
at it.
    One of the things that concerns me the breadth of it, and 
we are finding that we----
    Senator Alexander. Is your mike on, Senator Lott?
    Senator Lott. It is on. I will get a little closer.
    It is so easy to focus on the immediate aftermath, the 
recovery, the cleanup and the beginning of reconstruction, but 
you have to look at what is happening on a human basis, people 
that have lost their jobs and need unemployment compensation, 
people that cannot afford their health care, need some 
temporary expansion of Medicaid. We need to look at 
transportation, and we need to look at education.
    I want to say how proud I am, Mr. Chairman, that you are 
the head of this subcommittee, and with your background, I feel 
very good about things, innovative things that we are going to 
do in education and early childhood development.
    Thank you, Mr. Chairman, for pushing the subcommittee to 
have this hearing, and Senator Kennedy and Senator Reed, thank 
you for being here.
    I do not want to give you a litany of horror stories. Let 
me just cite a couple of examples of the magnitude of this 
problem. In my own State we had, not counting higher education, 
community colleges and universities that did have damage also, 
but we have 246 schools in my State that received severe 
damage. Twenty of them probably are not going to be repairable, 
but 16 we know for sure, totally destroyed with wind and water. 
Those that were close to the shoreline are just absolutely 
gone. And so those children have been spread across--well, our 
people, at least, over 40 States. Mississippians are in 40 
States and Louisianans probably in every State. The children 
are with them, or many times I have found that the parents have 
stayed to try to work through the cleanup, and they have sent 
their children to other places to go to school.
    In my State I have a list of the numbers of students that 
schools are accepting. Madison County, Mississippi has accepted 
350. Warren County, which is probably 150 miles from the Gulf 
Coast, has over 200 there. And in my hometown of Pascagoula, 
every school had so much damage that we are not going to be 
able to get the students back in there probably till the first 
of the year, with two exceptions. The high school, which was 
our newest school, maybe could be occupiable in October, and 
our local Catholic School, Sacred Heart. Because of where they 
were located, they are back in business, and a lot of the 
children who were going to the public schools, since my 
community is about 50/50 Protestant and nonProtestant, mostly 
Catholic, some Jewish, they are in those Catholic schools. I 
know that you have testimony you are going to have here from 
the Orthodox Jewish congregations that has a school in I 
believe Memphis that has accepted students.
    We need to take a look at how we are going to help the 
teachers and the students, as well as what it is going to take 
to rebuild these schools and what are we going to require of 
the rebuilding. I hope that you will think about it in an 
innovative way. I am not interested in necessarily making 
permanent, but I do think we have to make sure that these 
school districts that have shown magnanimous gestures, have 
taken on extra children without extra space and without extra 
teachers sometimes, or in some instances have hired the 
teachers from the Gulf Coast, that those school districts get 
some assistance because they are part of the evacuation effort 
that is under way, and we cannot just leave them holding the 
bag.
    I do think that at least on a temporary basis, that money 
needs to follow the students. If they go to a parochial school, 
a Jewish school, a Catholic school, an episcopal school or 
private school on a temporary basis, we have to make sure that 
those schools have what they need to do the job. Otherwise, we 
are not going to be able to accommodate them.
    I thank you for having this early hearing. I believe that 
within the next 2 or 3 weeks we need to develop a package that 
will deal with the broader sense. It will have multiple titles, 
but we cannot have a bill that does not have a title dealing 
with the education component that we need in our States, and I 
do not have the magic solutions here, but I believe you will 
help us find some that will make a big difference in education 
throughout the region, and frankly, maybe even across America.
    With that, my colleague, I will yield to you.
    Senator Alexander. Thank you, Senator Lott, for coming. I 
know Senator Cochran has a staff member here, and we will look 
forward to working with you both to help Mississippi.
    Senator Lott. I would like to note the Assistant Secretary 
for the Office of Elementary and Secondary Education, Henry 
Johnson, until just a very few months ago, when he saw what was 
fixing to hit us--[Laughter]--was our Superintendent of 
Education in Mississippi, and he has assured me he will take 
care of all of our needs.
    [Laughter.]
    Senator Alexander. He has a chance. He is the next witness 
right after Senator Landrieu.
    Senator Landrieu from Louisiana? Thank you very much for 
being here.
    Senator Landrieu. When he took this job, he had no idea how 
big it was going to be, but he is up to the task.
    I want to thank my colleague from Mississippi. He most 
certainly, in his State has shared in large measure the brunt 
of this devastation, which as he said, is very hard to 
describe, and I thank those Senators, Senator Enzi, Senator 
Kennedy, Senator Dodd and others that have come down to the 
State to see firsthand the devastation.
    This is not a local problem. It is not even a regional 
problem. It is a national tragedy, unprecedented in its nature, 
and it is going to take a national response. It is going to 
take our best thinking, our very creative thinking, and our 
quick action, because the situation is quite dire and quite 
challenging.
    Besides the numbers that Senator Lott has indicated to you, 
just in my brief testimony, in Louisiana where we took the 
brunt of Katrina, 187,000 public school students are in 
different schools today than they were 5 weeks ago. 61,000 
private school students have been displaced. A total of 8 
Louisiana school districts, our three largest school districts 
have been impacted, Orleans, Jefferson and St. Tammany. Three 
of our largest have been impacted directly. Four school systems 
may be able to reopen by November, St. Charles, St. Tammany, 
Washington and the city of Vogalusa School System. We have 66, 
64 parishes, 2 city systems. Unfortunately, it is projected 
that the four other districts, which include Jefferson and 
Orleans, our two largest, 450,000 people each, one a suburban 
parish, one an urban parish--Plaquemines and St. Bernard, which 
are fairly large systems themselves--will not be able to open.
    I am proud to say that 2 days after the storm, our 
Superintendent, Cecil Picard, walked to the microphone just a 
few inches from me and said--while people were still on their 
roofs--``I want the parents that can hear me, when you get off 
the roofs, get out of the water and we are finished saving 
lives, please focus on getting your children in school for 
their mental and emotional stability and health, for the 
stability of your family.'' It is extremely important that 
parents focus. They have lost their homes. They have lost their 
jobs. They have lost their cars, but you know, their children 
are alive.
    And our Superintendent had the good sense to say, just 
focus on one thing and try to get your kids in school because 
it brings a sense of stability to the family. So that is what 
everybody tried to do. They went to any school that would take 
them, and just tried to get their kids enrolled. It brings 
order to the day. It brings a sense of security when hundreds 
of thousands of families have no security. They have no job, no 
place to go, no place to work. The schools have in some way 
become their lifeline to get normalcy. So that is just an 
emotional picture to think about.
    These districts are also major employers. Our districts 
employ 7,865 teachers, 1,700 certified staff, and 7,000 support 
workers, for a total of 17,000 people that are not receiving 
paychecks today. I am sorry. They may be receiving paychecks 
today. We do not know how long they are going to be receiving 
paychecks, but the thing is you cannot have schools then become 
places of unemployment. You have to have some sort of 
continuation so that the economy can get started again.
    Our delegation, Louisiana delegation introduced some things 
today. I will not go into too much detail. We will submit it 
for the record. But I want to commend Senator Kennedy and Enzi 
and the administration for their preliminary support of either 
4,000 per student or 90 percent of instructional and 75 per 
student that would, as Senator Lott said, of course cover our 
public school students, but also give some relief to families 
who went to whatever school would take them. We are very 
grateful to our Catholic school system and our private school 
system for stepping up in this very unusual time, and if we can 
continue that on a temporary basis until things stabilize, I 
think that would be very helpful.
    Let me just say one other thing, particularly to Senator 
Kennedy. Senator Kennedy, besides the teachers being out of 
work, some of their health insurance is not portable, and so 
these teachers--we are trying to retain our teachers--and let 
me say Mississippi has been very good competing for some of our 
good teachers in Louisiana all these years, and Texas competes 
for some of our teachers. So Louisiana has an added problem, 
that if we can, and Mississippi, keep some of our best 
teachers, other States may pull them away. Obviously, they have 
to work, they want to work themselves. So our Superintendent 
really wants us to come up with an incentive program to keep 
our good teachers so we can rebuild our school system, when 
obviously the water goes down, the environment is cleaned up, 
the highways are reconstructed and people can actually get to 
the school buildings when they are rebuilt.
    I am going to submit the rest for testimony, but that is 
just elementary and secondary. We have got universities that 
are closed down, public and private, that are also large 
employers, and it really is a very comprehensive problem. Like 
Senator Lott said, I wish there was a magic bullet, because I 
would go find it and give it to you, but there is not one. But 
there are things that we can do, and I think beginning with the 
work that this committee is doing is a great help, and we thank 
you very much for your consideration of our pretty desperate 
situation.
    Senator Alexander. Thank you, Senator Landrieu for your 
leadership, and we look forward to working with you and Senator 
Lott as we develop our legislation, and as I said earlier, hope 
to do it in a consensus way and to do it rapidly.
    [The prepared statement of Senator Landrieu follows:]

                 Prepared Statement of Senator Landrieu

    Good afternoon. Thank you for giving me the opportunity to 
speak today on the long term consequences this great disaster 
will have on Louisiana's schools.
    There are 187,000 public school students and 61,000 private 
school students that have been displaced by Hurricane Katrina. 
A total of eight Louisiana school districts were directly 
impacted by Hurricane Katrina. Four school systems may be able 
to re-open by November: St. Charles, St. Tammany, Washington 
and the City of Bogalusa School Systems. Unfortunately it is 
projected that the other 4 districts could be closed for a 
whole school year: Jefferson, Orleans, Plaquemines, and St. 
Bernard School Systems.
    The most severely impacted Parishes have lost approximately 
$800 million in local revenues and in Minimum Foundation 
Program funds will be impacted and/or lost. These districts 
employ 7,865 teachers, 1,700 other certified staff and 7,022 
support workers, for a total of about 17,000 potentially 
displaced workers from 236 schools.
    While the hit was the greatest to the school serving the 
Southern portion of our State, this disaster has also had a 
substantial impact on other Louisiana school districts. Today, 
our delegation introduced a package meant to address some of 
the short and long term needs of these districts.
    First, we must do everything we can to encourage and 
strengthen our schools as soon as possible. Before Katrina, 
Louisiana's per student expenditures were $7,991. Senators 
Kennedy and Enzi have proposed legislation that would allocate 
$4000 per pupil grants to be disbursed to school systems that 
serve as host to displaced students. The Administration has 
proposed paying for 90 percent of instructional costs per pupil 
not to exceed $7,500 for host schools. Funds provided for both 
the schools that were directly impacted and those that serve as 
hosts will go a long way in covering the gaps left in schools.
    Second, we must be creative and engage programs aimed at 
getting the best and brightest of our teachers to return home 
as soon as possible. Louisiana has had to fight hard to keep 
our best teachers. Our border States are infamous for posting 
billboards, luring our young graduates to come and teach in 
their schools. Many of our teachers have begun to seek full-
time or part-time employment in schools outside their district.
    A teacher in St. Bernard parish contacted me because she is 
trying to find a teaching job in another State but is afraid 
her health insurance will be cut off in the interim. Numerous 
parents have contacted me because they need to go back to work 
and want to make sure their children are placed safely back in 
school first. Others have called and wanted to know what will 
happen to their jobs if the school system they worked in goes 
under. Therefore, the delegation is recommending $750,000,000 
be given to the Louisiana Department of Education for the 
creation of a ``Coming Home'' teacher incentive fund to be 
given in order to retain our qualified teaching professionals 
during the time it takes to rebuild the schools.
    Third, we will now have an opportunity to re-vitalize our 
public school buildings. But this has to be done in a smart 
way. It is very important to me that we do not simply rebuild 
our schools to their pre-Katrina substandard state but instead 
take this opportunity to make our schools a more welcoming 
learning environment that encourages academic excellence.
    Therefore, I have recommended $2 billion for my 
Superintendent of Education to use in constructing schools that 
embrace research based construction models such as the 21st 
Century Community Learning Centers. This model is based on 
small, personalized, state-of-the-art elementary, middle and 
high schools built to help students achieve, graduate and be 
prepared for the 21st Century competitive economy. The schools 
would also function as community learning centers before and 
after normal school day hours--serving the community with pre-K 
opportunities, literacy classes and adult educational 
opportunities.
    Finally, I know that many of you on this committee share my 
views on the important role Charter Schools play in improving 
public education. Before the storm hit, I had launched an 
Educational Venture fund--a public/private partnership I had 
started with the Dean of the University of New Orleans to take 
over failing public schools turning them into high achieving 
charter schools.
    I know that one of the issues before you to decide is what 
impact this disaster will and should have on our efforts to 
Leave No Child Behind. Let me take this opportunity to remind 
you that Louisiana has been noted for having one of the best 
accountability programs in the Nation--our Board of Education 
understood the importance of accountability standards years 
before NCLB was enacted and had a running start at keeping our 
teachers and the school system accountable to our kids. Our 
Louisiana Superintendent of schools, Cecil Picard fondly calls 
our successful accountability program the ``Engine for 
Change.'' I am confident that he will work closely with the 
States that have graciously taken in our displaced students to 
ensure that our engines never stop running despite where our 
students are placed.
    Everyday that our Louisiana students are not in school is 1 
more day that they are not learning and therefore not reaching 
their full potential. I know I share the views of this 
committee that we must cross all political divides and unite to 
make sure that everything in our power as elected officials is 
done to get these deserving kids back in school and therefore 
back to life as they know it.
    I want to thank Secretary Spellings for reaching out to me 
and to Louisiana during this challenging chapter in our State's 
history. She warmly expressed her mutual admiration for 
Superintendent Picard and I asked her to continue to work 
closely with our State officials to make sure that all branches 
of the government come together to ensure a superior education 
for all Louisiana's students.
    Senator Kennedy. Could I ask just a question of these 
Senators before we go on?
    Senator Alexander. Of course.
    Senator Kennedy. I think in the funding, we have to find 
some ways of helping all the students. There are a couple 
different points that I would ask you. The first involves the 
amount of payment that ought to go to schools receiving 
students displaced by Katrina. We were thinking about working 
from the average per pupil expenditure in the State. States 
have different amounts in terms of their per pupil funding for 
public schools, if you know what I mean. I do not know if you 
have thoughts.
    A second point is that we know that FEMA is going to have 
to support reconstruction, but listening to you, you were 
talking about the need for schools to open quickly. There may 
be schools where some additional help and assistance, not the 
whole reconstruction, but interim help and assistance might be 
needed to re-open quicker. I do not know whether you have any 
reaction on those points.
    I just want to mention we are proud of what's been done to 
respond to date. We have 1,000 college students displaced by 
the storm in Massachusetts. We have 437 at Boston University 
alone.
    Senator Landrieu. Thank you, Senator Kennedy. Give them a 
good education. We worry about you all up there, how you all 
educate our kids, and send them on home.
    [Laughter.]
    Senator Kennedy. We are going to send them on down to Trent 
Lott.
    [Laughter.]
    Senator Landrieu. No telling what they are lining up there 
in Massachusetts.
    Senator Lott. Don't mess up those students up there.
    [Laughter.]
    Senator Landrieu. Yes, and send them home. We thank you, 
Senator. But on that issue we will submit for the record, but I 
guess it is about $4,000 to $5,000, $4,000 is our--I am sorry--
$7,000 is our minimum foundation formula, but the record will 
reflect what that is.
    Not only do we have to help the schools that were closed 
and impacted get started up, but the school systems, 
particularly our public school systems that have absorbed. In 
some instances in Louisiana their enrollment has gone up 20 
percent. So while their schools were crowded, Senator Dodd, to 
begin with, now they have 20 percent more capacity. So you can 
imagine the strain that that is on their school system. So even 
parochial schools have stepped up, but our public school 
systems have stepped up under great strain. So we can give you 
those numbers.
    Senator Lott. The major source of our funding for our 
schools in Mississippi comes from the ad valorem, our property 
taxes. But from Pascagoula to Biloxi to pass Christian, the Bay 
St. Louis to Waveland, there will be none.
    Senator Landrieu. New Orleans, Jefferson, St. Tammany.
    Senator Lott. And Pass Christian, I would have to check but 
they might have one school standing.
    Senator Dodd. No, they do not. Ted and I spent some time, 
and there is nothing left. That building is gone.
    Senator Lott. The people are going to come back. We are 
going to have to help with their schools, but the towns are not 
going to have any property taxes coming in to pay for that. So 
there you are damned if you do, damned if you don't. I will 
just give you one example. There was a discussion the other day 
about trying to come up with a package to help people that did 
not have insurance, flood insurance or any insurance in some 
instances, to help them get something so they could get back 
into some sort of housing, and the package actually would have 
been private mostly, 75 percent, up 75,000, plus 26,000 I think 
possibly from the Federal Government.
    And when it was being discussed with people from Bay St. 
Louis, Waveland and Pass Christian, finally the mayor of Bay 
St. Louis, a guy named Eddie Favre, he said, ``No, wait a 
minute. If this is a buy-out do you mean we have to give up our 
property, our lots?'' And the response was, ``Yeah, this plan 
is a buy-out.'' He said, ``We do not want it. We are going to 
rebuild on our lots. We will work a deal with you, but we are 
not giving up our homesteads. We are coming back.'' And they 
will. We have done it before in Pass Christian, where Senator 
Kennedy and Senator Dodd have been.
    But in the meantime, Mary is right, Senator Landrieu is 
right, once you get your kids back in school and once you get 
back to work, order begins to get back in place, even if you do 
not have a home or even a car. But I think that getting kids 
back in school or making sure your kids are going to school and 
being taken care of is the most important thing for a lot of 
people right now. That is why it means so much to us that 
school districts all over our State, and Louisiana, as far away 
as Tennessee and all over this country, are taking in these 
kids. It makes all the difference. We have to make sure those 
schools that have done that as a magnanimous gesture, do not 
wind up having financial problems of their own as a result of 
it.
    I do not know what the State number is, but it is not 
probably what it should be. We have always financed our schools 
without----
    Senator Dodd. The impact aid example, I mean most of us 
have military bases, and of course the arrival of students who 
come, their billets, we have accommodated that over the years 
and helped school districts, obviously on a much smaller scale 
than what you are talking about here, but nonetheless there are 
examples of how that can work.
    I just want to underscore the point Teddy has made and both 
of you have made. We heard this in Alabama with the mayor and 
heard it in Louisiana, you build them, the kids will come back. 
And the schools really are the anchor. People will sacrifice a 
lot of things, having a place to live, having a place to work, 
but their kids' school, people move all over this country to be 
in the place where their kids get the best education. This is 
the magnet. This is going to make the biggest difference in the 
world in my view, of making it possible for these children, 
these families to come back, is having an educational 
opportunity. So it is the critical piece in my view.
    Senator Landrieu. And it is a great opportunity for us to 
build even a better school system, which is the view of all the 
members of this committee. Like Senator Lott said, we want our 
homesteads back and our lots. We may need to build them a 
little higher, a little stronger, but we need to build our 
schools a little higher, a little strong, not just physically 
but academically as well. I think this committee understands 
you are the experts, and we are here to help you.
    Senator Alexander. When we come back, our witness will be 
Mr. Johnson, the recent Superintendent of schools in 
Mississippi, and we will ask him to describe the President's 
proposals. Senator Kennedy, the administration's proposal, not 
much different than the one that you and Senator Enzi had, was 
that the Federal Government pay for 90 percent of the per pupil 
expenditure, but not to exceed $7,500 per student.
    So far as Senator Dodd's point about the importance of the 
schools, I found something my great-great-grandfather wrote 
about the pioneer days in Tennessee, and they said, ``First you 
build the church, then you build the school.'' Those are the 
first two things they did in our pioneer communities, and I 
think we can try to remember that here.
    We all need to go vote, but we will reconvene at 10 till 
4:00, about then, and we will begin with our opening 
statements, then we will go to Mr. Johnson, and to our other 
witnesses. The hearing is in recess until 10 till 4:00.
    [Recess.]
    Senator Alexander. Thank you for waiting. The hearing of 
the Education Subcommittee on Katrina's displaced 
schoolchildren will now resume.
    The other Senators are coming back. We are voting on final 
passage of the military construction legislation appropriations 
bill, which is important that we get done right away because we 
are calling on our military to do things overseas as well as 
here in the United States these days, and all of the Senators 
wanted to be there for that.
    Senator Dodd, Senator Enzi and Senator Kennedy will be 
back, and when they come back, I will introduce them. Following 
my statement, the other Senators may make an opening statement. 
I will first introduce the witnesses that we have, so that when 
it comes their turn to be presented, I will not introduce them 
again.
    Following the opening statements by the Senators, Assistant 
Secretary Henry Johnson is here from the Department of 
Education. Mr. Johnson, as Senator Lott reminded us, was the 
Chief State School Officer in Mississippi until not very long 
ago, and now he is the Assistant Secretary for Elementary and 
Secondary Education--the top person in the Department of 
Education, the U.S. Department of Education for K through 12. 
He will be on a panel by himself, and we look forward to 
hearing from Mr. Johnson how the U.S. Department of Education 
assesses the problem of Katrina's displaced schoolchildren and 
what the President's recommended solutions are for helping 
Katrina's displaced school children so we can consider the 
President's recommendation. I know the Senators will have 
questions of Mr. Johnson, and we will have one round of 
questions for him.
    Then we will go to our next panel. Our next panel includes 
school leaders from the affected area. Darryl Gates, for 
example, is a Middle School Special Education Teacher from 
Shreveport, LA. He has been a public school teacher for 28 
years and he is currently a special education teacher, a highly 
qualified one. He has a broad background and resume in 
education, serving a 3-year term on the Board of Examiners of 
the National Council and the Accreditation of Teacher 
Education.
    Sister Michaeline Green is the Superintendent of Schools 
for the Catholic Diocese of Baton Rouge, LA. She has had that 
job since 1977. We look forward to her testimony especially 
because Baton Rouge is the closest big city I suppose to New 
Orleans, and a great many of the families from New Orleans and 
the parishes that have been affected, have moved to Baton 
Rouge. Sister Michaeline has also a distinguished background of 
educational achievement and active community involvement.
    The two other witnesses who we will hear from are Rodney R. 
LaFon, who is Superintendent of St. Charles Parish Public 
Schools in Luling, LA. He was appointed Superintendent in 1995. 
He served as a music teacher, and an Assistant Principal. He 
has been an educator for over 30 years, and his schools have 
won awards on a number of different occasions.
    Then Mike Stein, who is President of Margolin Hebrew 
Academy in Memphis, TN. It is a Jewish day school with an 
enrollment of 250 students from pre-kindergarten through the 
12th grade. He has been a board member for 30 years. He is 
Senior Vice President of Investments with Wachovia Securities 
and he will talk about how that school in Memphis has helped 
with displaced Katrina schoolchildren.
    Now that we have resumed, I will make my opening statement. 
Then we will go to Senator Dodd. Chairman Enzi of the full 
committee will then make a statement, and then Senator Kennedy 
we expect will be back, who is the ranking member of the full 
committee.

                 Opening Statement of Senator Alexander

    Senator Alexander. We have already heard that 372,000 of 
those displaced by Katrina are school-age children in 
kindergarten through the 12th grade. Today we are here to see 
what we can do to help all of those children. Katrina, the 
storm, did not discriminate among children, and neither should 
we.
    Many communities are struggling to meet those challenges. 
We are hearing a lot about Texas in the news today because of 
Hurricane Rita. Texas already expects to enroll as many as 
60,000 students who have been displaced by Katrina. Houston 
Independent School District, which has enrolled roughly 4,700 
displaced students, has hired 180 new teachers, added 37 new 
bus routes, ordered about 10,000 new textbooks. Georgia has 
accepted more than 9,000 students, Alabama 5,400, my home State 
of Tennessee about 3,500, and the number may grow.
    Public school systems across the country, and especially 
those nearest Louisiana and Mississippi are working hard to 
absorb those students, and they are absorbing most of those 
students. But private schools are joining in the effort too. We 
already heard Senator Lott say that in his hometown of 
Pascagoula, other than the high school, the only school still 
standing is a Catholic school, and the only one available for 
many of the children there.
    This should not surprise us that the private schools are 
joining in the effort, since the four Louisiana parishes hit 
the hardest by Katrina had nearly one-third or 61,000 of their 
187,000 students in private schools. Fifty-thousand students 
from the Catholic Archdiocese of Greater New Orleans alone are 
displaced.
    In Texas, for example, 4,000 of the 60,000 displaced 
students have been enrolled in private institutions. In Baton 
Rouge, which we will hear more about in the testimony today, 
reported on National Public Radio Monday said there were 5 to 
10 thousand displaced private school students with no school to 
attend. To accommodate them the Catholic diocese there is 
struggling to establish satellite schools, some located great 
distances away, which students will attend at night.
    In Memphis, which we will also hear more about today, the 
willingness of private schools to help has been a big help to 
the public schools. The Memphis City Schools, the public 
schools, for example, have enrolled over 650 new students. The 
adjacent Shelby County Public School District has enrolled over 
600 new children, a difficult burden in a school district 
already growing by 1,000 students and one new school building a 
year. In addition to that, the Memphis Catholic Diocese has 
enrolled over 250 students to help share the load.
    So how should we here at the Federal level respond? I think 
we would be wise to take a lesson from the people who elected 
us and sent us here. Let me give you an example of what I mean. 
A couple of weeks ago in Maryville, Tennessee, my hometown, 
former Vice President Al Gore flew in with a planeload of 80 
evacuees. They just arrived. That happens to be one of the most 
Republican counties in Tennessee. Nobody asked about anybody's 
politics. Everybody just pitched in to help.
    Last weekend in the church where I am an elder in 
Nashville, Westminster Presbyterian Church, we sent $80,000, an 
Associate Preacher and a truckload of clothes and Clorox to 
Southern Mississippi. The preacher reported back that one 
grateful man said on his cell phone, ``The Presbyterians are 
here and they have Clorox.''
    [Laughter.]
    When the Clorox was passed out, nobody asked if anybody 
else was a Presbyterian.
    Now this Sunday the headline in the Nashville Newspaper, 
The Tennessean said, ``Private schools welcome those displaced 
by Katrina.'' The newspaper had a glowing account of this, 
which I will include in the record. But basically it said these 
children are in crisis, they have been displaced, and the 
principal of Father Ryan High School accepted 20 students, 
waiving a $6,800 tuition and a $350 activity fee. He says it is 
not about money. There is no amount of money that equals being 
family.
    That is how people at home are trying to help. I am sure 
that is true in Connecticut, I am sure it is true in Wyoming, I 
am sure it is true in Massachusetts. We know it is true in 
Texas. I make these points because I hope we can follow in that 
same spirit. How can we help all the children? How should we 
get to it?
    The two proposals right now, the President has made one, we 
will hear about that from Mr. Johnson. Chairman Enzi and 
Senator Kennedy have made one. We will talk about that.
    It is pretty easy to figure out what to do about the kids 
in public schools because the Federal Government is already 
helping the public schools. We have a couple of suggestions on 
the table that are really not that different. It basically 
says, take an amount of money such as the amount the State 
spends per student, and for 1 year on an emergency basis, let 
that money essentially follow the child to the public school.
    But if we follow our traditional approach, it does not do 
anything for the kids who found themselves in private schools. 
But there is nothing traditional about Katrina. So we need to 
find some nontraditional way to help on a temporary emergency 
basis.
    The Washington Post editorial this morning gave us some 
principles which I thought were pretty wise, and I would like 
to quote them in conclusion. It said, ``Just as it's important 
not to sneak in an enormous new Federal program for ideological 
reasons''--they are talking about a new Federal voucher program 
for kindergarten through the 12th grade--``it's also important 
that Senators, teachers unions, nor anyone else rule out for 
ideological reasons what could be a useful tool for 
distributing relief funds. There could be pragmatic reasons to 
put displaced students in private or parochial schools, if say, 
school districts are overcrowded, if students have special 
needs or that happens to be where they ended up, so it might 
make sense to attach a sum to each student, as long as that sum 
is given out in a limited number of places and for a limited 
time, certainly not longer than the current school year. Any 
solution that would allow students to finish the year with a 
minimum disruption to themselves and their families, and that 
would prevent school districts in Texas and elsewhere from 
being unduly burdened, should be welcome.''
    So I would propose that we, on our committee here--we know 
very well that we have significant differences of opinion about 
whether the Federal Government should participate in any kind 
of voucher program for kindergarten through the 12th grade. I 
would propose that we not make that argument here. That is not 
what we are talking about. We can set that off and have that 
argument another day.
    What I propose we look for is a temporary 1-year emergency 
solution that attaches a sum of money in some way to help each 
child, all children displaced by Katrina, wherever they find 
themselves in accredited schools.
    So I hope our witnesses today will help us figure out how 
to do that. You have expertise. You have a view of the whole 
country, and most importantly, those of you from Louisiana and 
Mississippi are dealing with that every day. And then I hope we 
can react quickly because we know you are hiring teachers, you 
have new bus routes, you have bills to pay, and you have lots 
of people without any money. So the quicker we can come to a 
consensus, the quicker we can move and the quicker these 
children can be helped.
    We thank you for coming. Our goal is to help all of 
Katrina's schoolchildren in a temporary emergency way and to 
get on with it.
    Senator Dodd.

                   Opening Statement of Senator Dodd

    Senator Dodd. Thank you very much, Mr. Chairman, and thank 
you for pulling together this committee and holding this 
hearing in as expeditious a fashion as you have. This is 
clearly a set of situations here which demand our immediate 
attention, and I appreciate your doing this.
    I am also pleased that Senator Landrieu and Senator Lott 
could be here. Several of us last Friday went down and spent 
the day in the region. We were in New Orleans for several 
hours, and then flew over that city, and then by Blackhawk 
helicopters, all along the Gulf Coast to Mobile, AL. We had a 
chance to stop in a couple of places including Pass, Christian 
and Pascagoula, to get a sense firsthand of the level of 
devastation. I know the media has covered this extensively, and 
this often is said--but it is true in this case--it is really 
hard to capture on film, even great photographs, the extent of 
the damage and the devastation that has occurred. Obviously, we 
see it in a physical sense, but what we are talking about here 
today goes beyond the bricks and mortar, the rebuilding that 
has to occur, and the kind of damage that can occur to some of 
the most vulnerable of our citizens, our young people.
    So I applaud you for highlighting this issue, and I 
certainly want to be a part of any effort to provide real 
assistance to these families and these children immediately.
    The numbers are staggering, 372,000 children were displaced 
by the hurricane. It is a hard number to get your arms around--
to realize that many young people are in temporary 
circumstances at best right now, and many, I presume, are not 
back at all, and are struggling to find a place with their 
families to rebuild their lives. In fact, some who did think 
they had found safe harbor are packing up again today because 
of Hurricane Rita. The trauma that this poses for these 
families is significant.
    Public schools across the country, I am proud to say in my 
own State of Connecticut, have taken in displaced students and 
are providing them educational opportunities. Like adults, 
children experience the same feelings of helplessness and lack 
of control that disaster-related stress can bring about. Unlike 
adults, however, they have little experience to place their 
current situation into perspective. Research has shown that a 
child who lacks proper emotional support is less able to fully 
recover from a traumatic event such as what was seen in 
Hurricane Katrina.
    For this reason, I think, Mr. Chairman, we must ensure that 
the emotional supports are in place as quickly as possible for 
Gulf State residents.
    In addition to the displaced students, students already in 
the receiving schools will also have to adapt. To date, as we 
have heard, Houston has taken in 2,600 students. Imagine what 
this does to class size, never mind students' everyday social 
adjustment. I am particularly grateful for the foresight of 
this committee and Senators Murray and DeWine, in strengthening 
the McKinney-Vento Homeless Assistance Act, which we 
reauthorized under the No Children Left Behind Act. McKinney-
Vento provides formula grants to States to ensure that homeless 
children have access to the same free, appropriate public 
education provided to others. It requires schools to enroll 
students who are homeless, including those who have lost their 
homes because of a natural disaster. As an education official 
in Mississippi recently said in The Wall Street Journal, ``This 
law has helped evacuees to enroll in schools without red 
tape.'' As she said, ``If there were no McKinney-Vento prior to 
the hurricane, surely the hurricane would have created it.''
    Having said all of this, we cannot overlook the fact that 
schools receiving students face a number of serious challenges. 
Many students are coming to school without educational or 
immunization records. In the case of special education 
students, they are arriving without their individualized 
education plans, as required under IDEA. But, even without 
these records it is imperative that we provide a smooth 
transition, or at least as smooth as we can for these displaced 
students.
    The schools that are taking in a large amount of students 
need our assistance and they need it immediately. Money for 
additional staff, for additional mental health services, for 
materials, and for portable classrooms. Waiver authority as it 
relates specifically to the assessment and corrective action 
provisions of the No Child Left Behind Act also needs to be 
considered.
    Of course we must acknowledge the schools that have been 
directly impacted by Katrina, schools that have yet to reopen. 
Two weeks ago the full committee had a hearing in which Dr. 
Roussel of the Jefferson Parish in Louisiana said that if you 
rebuild the schools, they will come. ``They'' meaning parents, 
workers, business community leaders. I agree with her on that. 
We must do all that we can to get cities like New Orleans back 
on their feet. They need assistance and infrastructure 
immediately.
    Now is the time for all of us to pull together, as you 
pointed out, Mr. Chairman. It is not a time necessarily, to 
take advantage of a tragedy to rewrite some of the basic laws 
of this country. We need to be careful about that possibility 
and, we must recognize that this is a national tragedy with 
immediate consequences. If we wait too long or dicker around 
with some of these provisions, we deny families and children to 
get back on their feet.
    So without endorsing every dotted ``i'' and crossed ``t'', 
Mr. Chairman, because I think we have to be careful how we do 
this, I think what you have suggested makes sense. It is a 
deviation from positions I have historically taken regarding 
vouchers, but I think we need to provide assistance to families 
and children as soon as we can. I would certainly want to see 
the details of it. I would want it under a very strict time 
agreement so if it needs to be extended we can come back and 
review it. But this is a tragedy, where you are talking about 
372,000 children, and after today or tomorrow we may find those 
numbers going up as a result of what has happened in Texas, or 
in Louisiana, depending on where this next storm hits.
    In my view we have to accommodate this in a way that makes 
some sense, that is balanced, and that is thoughtful, so it 
gets kids back on their feet as quickly as possible. I am 
prepared to work with you. I am confident my colleagues would 
as well, on both sides of the aisle here to try and provide 
assistance so that children are not going to be discriminated 
against as they try to get back on their feet in this very 
important effort.
    I believe of all the issues that need to be addressed, this 
is the one that demands our attention most immediately. Health 
would be a close second. But my point is, these children cannot 
afford to go months without having a certainty of a decent 
education.
    One of the things I hope we look at, by the way, is how we 
find more people willing to volunteer. I am not sure that the 
teachers will be back in communities, or that there will be 
superintendents or custodians. I know in my own State people 
want to come down and volunteer, retired teachers, people who 
have been in school districts. We need to call upon Americans 
who have some skills to go in and fill in the gaps once the 
assessments are made as to whether or not we have the personnel 
in place to provide children with as good an environment of 
education as we possibly can.
    With that, Mr. Chairman, let me stop. I want to hear from 
our witnesses as well, but I want to at least endorse in 
principle what you are suggesting. I want to work with you. I 
am very confident Senator Kennedy and others will share similar 
views with you.
    Again, we want to caution here--and you have said it well--
time constraints, be careful how we do this, and do not change 
the generic law, certain generic laws in our country ought not 
to be changed. Davis-Bacon, for instance, I do not think you 
need to mess around with here. But, we ought to certainly on 
educational issues be more flexible. I look forward to working 
with you.
    Senator Alexander. Thank you, Senator Dodd. I am not one 
bit surprised by your attitude, but I greatly appreciate it. I 
think that will help us enormously in creating a consensus 
swiftly, so we will pledge to work carefully with you and your 
staff in the development of whatever we do and stick closely to 
the principles that you just described.
    Senator Dodd. Thank you.
    Senator Alexander. The chairman of our full committee is 
Senator Enzi from Wyoming.

                   Opening Statement of Senator Enzi

    The Chairman. Thank you, Mr. Chairman. I particularly want 
to thank you for requesting, organizing, and now leading this 
hearing. I think it is an outstanding idea, and it will bring 
out some points that will allow us to sharpen and improve the 
education bill that we have ready for Katrina.
    I want to thank Senator Dodd for his cooperation and for 
the words he just said. That shows how close together we 
already are. This committee, I think has moved from being one 
of the most contentious to being one of the most productive, 
and----
    Senator Dodd. We have always been productive.
    [Laughter.]
    And contentious, and that is one of the reasons why we are 
productive.
    [Laughter.]
    The Chairman. I too had the opportunity to make that trip 
down to the Gulf States last Friday. I got to spend some time 
with my colleagues in looking at it, and I have always said 
that a picture is worth a thousand words, but being on the 
ground is worth a thousand pictures. We got to talk to people 
that were concerned about these issues firsthand, while we are 
looking at the scenes. It was very helpful in bringing us 
together on a package and this is another piece that needs to 
be done, and can be done, and we can make sure that the kids 
are all taken care of.
    I appreciate the cooperation of everybody. I would ask my 
full statement, which is considerably longer, be a part of the 
record as well. I have to run to one of those meetings right 
now, so thank you.
    Senator Alexander. Thank you, Senator Enzi. The statement 
will be made a part of the record.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you, Mr. Chairman, for holding this subcommittee 
hearing and providing us with a much needed opportunity to 
continue to learn from those who are working on the frontlines 
to meet the educational needs of the children and their 
families that have been displaced because of the devastation 
caused by Hurricane Katrina.
    Several of my colleagues and I were able to travel to the 
New Orleans area just a few days ago to see the damage done by 
the storm for ourselves. I don't think any of us were fully 
prepared for what we saw. The pictures we had seen in the paper 
and on television didn't fully portray what had happened. It is 
a tragedy that was even worse than it looked on the evening 
news or in the morning paper.
    That is why today's hearing and the HELP Committee 
roundtable that preceded it have been so important. Using the 
information we have obtained from the roundtable and what we 
will learn from today's hearing, we can pursue a comprehensive 
legislative approach to address the needs of those students who 
have been displaced by Hurricane Katrina.
    At the top of any agenda for immediate action will be the 
need to get our children back into school so they can continue 
their education. Returning to school will give our children a 
sense of routine that will assure them things are returning to 
normal and provide them with access to a support system of 
friends and teachers that will be invaluable as they and their 
families continue to come to grips with the after-effects of 
the storm.
    That is why we have been working as quickly as we can on a 
bipartisan basis to develop an education bill that will address 
the immediate needs of those whose lives have been forever 
changed by the storm. I have introduced a bill with Senator 
Kennedy that will provide immediate relief to students and 
institutions affected by Hurricane Katrina. This includes 
providing support to the communities throughout the country 
that have welcomed countless numbers of displaced families and 
children with open arms and open hearts, and provided them with 
the essentials they will need until they are able to return 
home.
    As we hold this hearing today, there are people from the 
Gulf region spread throughout the country and forced to depend 
on the kindness and goodwill of people they have never met 
before. Seeing so many Americans, from all walks of life, 
respond as they have and reach out to help those in need, gives 
me a clearer picture than I have ever seen before of what is 
right with America. It's a scene that gives me confidence that 
we will be able to rebuild and restore what was lost and return 
the people of New Orleans and the Gulf Coast to their homes.
    In the days since Katrina took such a heavy toll in 
Louisiana and the Gulf region, the Health, Education, Labor, 
and Pensions Committee has met with over 100 representatives of 
the education community--from preschool through higher 
education. We have consulted with the Red Cross, the Salvation 
Army and other community service organizations. We have heard 
their stories and listened to what they saw firsthand. We have 
asked for and obtained their advice and their suggestions on 
how to deal with the after-effects of this storm, and what we 
must do to be better prepared for some future disaster.
    The HELP Committee roundtable helped to identify the 
specific challenges that schools in the impacted areas and in 
the communities across the country that are receiving students 
from these affected areas, are experiencing. We heard Dr. Diane 
Roussel, Superintendent of Jefferson Parrish Public Schools, 
describe the devastation to her community and the important 
role that the schools will play in rebuilding New Orleans, and 
the nearby communities. Schools are the heart of the community 
and without them people will hesitate to return to those areas 
with their families.
    The roundtable took the first step down this road. Today's 
hearing will take another.
    As we prepare to act, we must be sure we have carefully 
defined what our target is, develop a strategy to meet it, and 
then provide the resources that will be needed to get us there. 
Failing to plan is planning to fail in the long run and we need 
strategies to meet both the short- and long-term needs of the 
people of the Gulf region whose lives have been forever changed 
by the storm.
    If we meet the challenge, we will have assured those who 
lost so much to the storm that there is a reason to hope and a 
date certain by which they will be able to return to their 
homes and the way of life they have come to know and love. 
Failure, once again, is not an option.
    As we work together to rebuild our schools and breathe new 
life into the communities they serve, we must ensure we are 
taking the most effective and fiscally responsible path 
possible. While we need to do everything we can to ensure 
increased flexibility, we must also demand complete 
accountability.
    The task before us is daunting. We have limited resources 
and we are faced with almost unlimited need. I look forward to 
the testimony from today's witnesses and the discussion that 
will follow on how we can best focus our efforts to ensure our 
children's educational needs will continue to be addressed.
    In that effort, the suggestions and experience of our 
witnesses will be invaluable. I want to again share with them 
all how much we appreciate their attendance and their 
participation. Working together I have every confidence we can 
meet this challenge.
    Senator Alexander. Now we will move to Assistant Secretary 
Henry Johnson, who I previously introduced, who is Assistant 
Secretary of the Office of Elementary and Secondary Education 
for the U.S. Department of Education, and until recently was 
the Chief State School officer of Mississippi, one of the two 
States most affected by Katrina.
    Mr. Johnson, you have heard what Senator Dodd and Senator 
Enzi and I have said. We have a consensus on principle. What we 
hope you and the other witnesses will help us do is write the 
details in a way that do not violate those principles. So we 
are looking forward to your specific technical assistance on 
just how to do this.

    STATEMENT OF HENRY L. JOHNSON, ASSISTANT SECRETARY FOR 
    ELEMENTARY AND SECONDARY EDUCATION, U.S. DEPARTMENT OF 
                           EDUCATION

    Mr. Johnson. Thank you very much, Mr. Chairman. I think as 
I get into my presentation that you will appreciate what the 
President's proposal has in it. Thank you very much.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to discuss how to make sure that each and every 
child affected by the hurricane gets the quality education he 
or she deserves and needs.
    Initial reports indicate 372,000 students were displaced, 
and 312,000 remain away from their homes and schools. Forty-
nine States and the District of Columbia have welcomed these 
children and their families.
    Leading the Education Department's response has been one of 
my first duties assigned since joining the Department a little 
over 6 weeks ago. When I left as State Superintendent of 
Mississippi, I had no idea that I would be going back as often, 
certainly to deal with this kind of issue.
    Over the last several weeks I visited both Mississippi and 
Louisiana several times, and let me tell you what I have 
observed, obviously, the enormous damage. And you are right, if 
you have not seen it, you cannot fully appreciate the 
devastation. But I have also witnessed tremendous response, 
response from all over the country, and, Chairman Alexander, I 
am sure that you saw the same when Hurricane Andrew came ashore 
during your tenure as Secretary of Education.
    I have spoken with State and local officials in both 
Mississippi and Louisiana, almost on a daily basis. When I 
first went to Mississippi, as I walked into the auditorium at 
Biloxi High School, certainly I encountered colleagues and 
friends. What struck me so deeply was one of the local 
superintendents came up to me with tears in her eyes, and she 
grabbed me by the arms and said, ``Henry,'' that's my name, but 
she said, ``You have got to help us get these kids back in 
school.'' And she said, ``I don't have faculty who have homes 
and clothes. We don't have buildings. But somehow we've got to 
get these kids back in school. Please help.''
    We have listened to what school officials have said. We 
have listened to their needs. They want us to provide fast, 
flexible assistance to them. In this regard the Secretary has 
set up an internal response team, headed by a senior official. 
She has assigned people to be on the ground in both Mississippi 
and Louisiana, and I have been tasked with being the primary 
contact person for both those States. I am confident that in 
order to meet the needs from those States--and not only those 
two but the other affected States and the receiving States--the 
President's proposal is the best way to provide this fast, 
efficient relief for children and their schools.
    As you know, Federal responsibility for rebuilding schools 
is assigned to FEMA and not to Department of Education. But 
school authorities throughout our country have many other needs 
that the Education Department is already helping them address. 
For example, we have launched the Hurricane Help for Schools 
Web site, and this Web site helps to match the needs of 
affected schools with those who want to provide assistance, and 
in just a few days we have matched more than 120 businesses, 
organizations, and schools with supplies for these needy 
schools. As Secretary Spellings has said, we want schools to 
welcome these students with both compassion and high 
expectations.
    In recent days we have announced a number of waivers for 
Mississippi, Louisiana, and Texas, and we presume more will 
follow on a case-by-case basis. Let me hasten to say the 
Secretary has been very, very clear that she does not expect to 
give any blanket waivers. We have had requests for waivers, and 
we will address those as these requests come in and as 
warranted, but we have no intention of doing blanket waivers. 
But let me tell you what she has waived, some examples at 
least.
    She has granted requests from Mississippi and Louisiana to 
waive the title I ``maintenance of effort'' requirement. She 
has granted a 12-month extension of the time Mississippi and 
Louisiana have----
    Senator Alexander. Mr. Johnson, that means that Mississippi 
and Louisiana do not have to come up with their share of the 
money for title I?
    Mr. Johnson. That is correct, sir. She has granted a 12-
month extension of the time Mississippi and Louisiana have to 
obligate funds awarded under ESEA. The original deadline was 
September 30, so she has extended that. She has granted to 
Texas a request to extend their annual performance report 
deadline. We are also being flexible with No Child Left Behind 
timelines for reporting and monitoring.
    However, by law, the Department can only be so flexible. 
The Secretary has limited authority to weigh provisions of the 
Elementary and Secondary Education Act, and she has almost no 
authority to weigh provisions of the Perkins Vocational and 
Technical Education Act, or the McKinney-Vento Homeless 
Assistance Act. That is why we are asking for broad waiver 
authority for the Secretary to help students and school systems 
recover from this disaster. But let me say very clearly and 
caution again, there is no desire to do blanket waivers, and we 
certainly do not want to do any waivers that impact negatively 
on civil rights or safety issues.
    Thousands of school systems will have unexpected costs as a 
result of this disaster. To help areas that are enrolling 
significant numbers of displaced children, President Bush has 
proposed that districts enrolling at least 10 evacuated 
students would receive one-time payments of up to $7,500 per 
student in Federal funds, up to 1.9 billion to pay for the full 
instructional cost for every displaced child in grade K-12. We 
would give districts the flexibility to spend the money on 
their most pressing needs, whether it is for school supplies, 
or transportation, or teacher salaries. We heard these requests 
a lot from people in Mississippi and Louisiana: free tutoring 
and special services for children with disabilities. These 
funds would also cover counseling for students suffering with 
mental health related issues and anything generated as a result 
of this trauma of the hurricane.
    Given what these kids and their families have gone through 
in the past few weeks, the most important issue is to get kids 
back in school, to bring that normalcy to their lives.
    We are proposing one time emergency replacements of up to 
90 percent of the State's average per student expenditure or up 
to $7,500 for a total of $488 million. The administration's 
proposal gives the same payment for each student, no matter 
whether they are attending public or private schools, and 
again, it is only for 1 year.
    As public school districts enroll large numbers of 
displaced students, they face problems of overcrowding and a 
shortage of teachers. As of September 21st, the Department has 
received reports from officials in at least four States 
identifying classroom space and/or teachers as problems in 
their school districts: Alabama, Arkansas, Tennessee and Texas. 
Also, as you may know, almost one-fourth of the students in the 
hardest hit Louisiana communities attended private schools. 
Nationally only about 1 in 10 attend private schools. We 
believe firmly that since the hurricane did not distinguish 
between public and private schools in its devastation, we 
should not distinguish in our extraordinary attempts to address 
those needs.
    So in conclusion, Mr. Chairman, as I am sure you will 
agree, we must make sure that students receive a quality 
education during this difficult time. We are faced with an 
extraordinary situation. I look forward to our continued 
discussion on how to provide an equally extraordinary Federal 
response, and I will be happy to respond to questions.
    Senator Alexander. Thank you, Mr. Johnson.
    I will ask a few questions, and I will ask Senator Dodd to 
ask whatever questions he would like. And I see Senator 
Sessions is here. Perhaps, Senator Sessions, would you like to 
make a brief opening remark before we go ahead?
    Senator Sessions. Thank you, Mr. Chairman. I think not. I 
will just make my remarks in my questioning. Thank you for 
bringing this issue up. It is very real in Alabama. I think we 
have 5,000 students that are evacuees. I visited personally in 
Bayou La Batre, our seafood area that was hit so hard. Their 
school was flooded. It is a very real problem, and I thank you 
for highlighting the issue.
    Senator Alexander. Senator Kennedy and Enzi have been here, 
and before you Senator Dodd--he can speak for himself--but he 
said a little earlier that we have a consensus on principle, 
which is for a short-term emergency basis help all the 
children. What we are trying to figure out here is what are the 
details to make sure we stick to our principles.
    I have a few short questions, Mr. Johnson. You have been 
very responsive, the Department has, but may I ask you to help 
make sure that you yourself and others in the Department work 
with Kristin Bannerman and our minority staff over the next few 
days so we can move as rapidly as possible as we get your 
technical assistance.
    Mr. Johnson. Certainly.
    Senator Alexander. You have done that so far, but we are on 
as fast a track as long as we have a consensus. The $7,500 
figure, where did that come from?
    Mr. Johnson. That is the average per student expense in the 
affected areas.
    Senator Alexander. So that would be the maximum per 
student?
    Mr. Johnson. Up to that amount, yes, sir.
    Senator Alexander. And your recommendation is for a single 
year?
    Mr. Johnson. Yes, sir.
    Senator Alexander. And is it your intention that this is 
temporary, a temporary 1-year law rather than a permanent 
change in the way the Federal Government runs?
    Mr. Johnson. That is correct.
    Senator Alexander. You have mentioned you need additional 
authority for waivers. Have you drafted the language that the 
Secretary thinks she needs for broad waiver authority?
    Mr. Johnson. Our staff has been working with staff members 
in Congress, yes, sir.
    Senator Alexander. That again is temporary waiver authority 
to be applied for the children in this disaster; is that 
correct?
    Mr. Johnson. Yes, that is correct.
    Senator Alexander. You did not mention it, and this hearing 
is not about it, but I think it is important to know that the 
President has also proposed please--describe your proposals for 
college students. There are 73,000 college students who are 
displaced, both in terms of the money for the receiving 
colleges and for interest on student loans.
    Mr. Johnson. Thank you. The Secretary has emergency support 
for affected postsecondary institutions including community 
colleges, to help postsecondary institutions in these areas 
operate quickly and effectively, approximately 90 million to 
approximately 31 colleges, universities, community colleges and 
proprietary schools. There is also an entrance forbearance for 
affected borrowers, a recommendation that would forgive 6 
months of interest on all student loans for borrowers living in 
a disaster area, in the affected areas.
    Senator Alexander. Thank you. I know that is outside your 
area of responsibility.
    Mr. Johnson. Yes.
    Senator Alexander. Senator Kennedy, I believe, said that 
there are a thousand displaced students in Massachusetts 
colleges, and my understanding of the President's proposal is 
the students of Boston College who were at Loyola--$1,000 would 
go to the receiving college.
    Mr. Johnson. That is the third thing, yes, sir.
    Senator Alexander. And that anyone who lives in the 
affected States of Alabama, Louisiana, and Mississippi, who are 
paying a student loan would have 6 months forgiveness on that 
student loan. Is my understanding correct?
    Mr. Johnson. That is correct.
    Senator Alexander. One other question. You have suggested 
that the money for the public schools go to the school 
districts, but in the case of Louisiana and Mississippi, that 
it go to the States themselves. Do you want to elaborate on 
that?
    Mr. Johnson. Yes. Just briefly, first of all, this is one 
of the requests from each of those States, and we are trying to 
be responsive, but more importantly, these students may not 
stay in a particular area of their first landing, so to speak. 
After 2, 3, 4 months, they may go to another place, and we want 
to have the flexibility to make sure that the area where the 
student is actually being educated gets the benefit of those 
dollars.
    Senator Alexander. Am I correct that your proposal for the 
students who find themselves in private schools is that you 
would give the grants to the States, and then the States would 
then distribute the money to----
    Mr. Johnson. Families, yes, sir.
    Senator Alexander. To families, some of whom might be in 
private schools.
    Mr. Johnson. That is correct.
    Senator Alexander. My last question is this. I notice that 
you have a means test for the private school students, that not 
all families would be eligible for that. I wonder about that. 
One of the things it seems we need to do here is to make things 
as simple as possible, and one of the advantages of the 
President's proposal, it seems to me, is that it is very simple 
and straightforward. It is just a sum of money following a 
child to a school. If you add a means test, does that not add a 
complication? And too, is it even necessary in a case like this 
because if a child suddenly finds himself displaced from a 
Catholic school in New Orleans, they probably already paid 
tuition there for the year, and then they are in Baton Rouge 
and they have to pay another tuition there, and they may not 
have a job and their house might have just blown away. I mean 
what difference? Why do we need a means test?
    Mr. Johnson. We have had discussion about that, and the 
Secretary thinks that this is one way to address the issue that 
even though there has been devastation, some people may be 
better able to handle these situations than other families. But 
I know the Secretary wants to get as much help to as many 
students and families as possible.
    Senator Alexander. Would it be possible that the provision 
could allow the States to create--that the Secretary's 
discretion could allow Mississippi and Louisiana, if they so 
choose, to adopt the means test, but if they find that it does 
not make sense to adopt a means test or it creates additional 
complications, that they might just go ahead and do it without 
a means test?
    Mr. Johnson. I am sure she would be willing to work with 
you on that.
    Senator Alexander. Thank you very much.
    Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman.
    Thank you, Mr. Johnson. It was a shock to have come to 
Washington and find within a matter of days you are back down 
in Mississippi.
    Mr. Johnson. Yes, sir.
    Senator Dodd. A couple things come to mind. Putting aside 
the specifics of the bill and how the money would work, it 
seems to me--I would make this case not just in the area of 
education but across the board--there needs to be a management 
operation in place here to oversee the accountability of a lot 
of this at the outset, not just after the fact. I am wondering, 
Mr. Chairman, if any consideration has been given to this. I 
know you have been sort of designated, at least temporarily, to 
handle this, but obviously you have been brought into the 
Department of Education to handle other national issues of 
education which need to be attended to in the midst of all of 
this.
    Mr. Johnson. That is correct.
    Senator Dodd. Can we consider whether or not it would make 
sense to have someone designated permanently over the next year 
or 2 to help manage this, to set up a structure here so that we 
would have people we can deal with. I think one of the most 
confusing things lately is who is in charge. You have mayors 
and governors and you have Admiral Allen. For those of us 
watching all of this, it seems there is sort of a bickering 
going on back and forth as to who is calling the shots on a lot 
of this stuff. One of my concerns is that we are going to write 
a lot of checks here over the next year or 2 or more, and at 
some point we are going to go back and try to account for all 
of this.
    Granted, it is never going to be perfect when you are 
trying to respond. I think the chairman is right, you do not 
want to get terribly complicated, but I am sort of hoping we 
might be able to set up an operation here that would raise the 
level of confidence that people have as to how this is all 
working, and obviously, it should come, in my view, out of the 
Department of Education. Hopefully, we would want someone 
designated with experience in these crisis management areas 
with a strong background in education.
    For instance, school construction, with all due respect, 
FEMA has a lot of obligations, but having school construction 
under FEMA does not make a lot of sense to me when you consider 
what has to be done on the kind of needs you would have. Having 
someone that is moving under the Department of Education, where 
you are going to have someone much more sensitized to what 
school construction should involve here in the short-term, is 
an example of what I am talking about. I wonder if you might 
comment on this as a general proposition?
    Mr. Johnson. The Secretary is very concerned that these 
dollars go to the purpose for which they are designed, and we 
want to make sure that there is--even though this is an 
extraordinary circumstance, that we do not overlook normal 
accounting principles, and that we in fact pay even more 
attention to how these dollars are used. In terms of having 
someone to work as sort of a clerk of the works, quite frankly, 
we have not discussed that, but that would be something that we 
should be certainly willing to try to figure out if there is 
something we can do and how we could go about doing it.
    Senator Dodd. Sooner than later, because if we move pretty 
quickly here it would be helpful to have that--not that it has 
to be part of legislation. It seems to me in circumstances like 
this, having the Department set up the apparatus and designate 
people would make an awful lot of sense.
    And also making assessments. Again, we should not be 
waiting for the assessments to decide what we need to do here, 
but I suspect that as you go down to these areas, that even 
some of the harder-hit areas may be responding to this in 
different ways. It may have been that there are structures in 
place that would accommodate students here. Other places, the 
devastation may not have been great, but for other reasons they 
are having problems that need to be addressed.
    I would hope that we are getting that kind of solid 
assessment as to what the needs are as quickly as we can, so 
that while we draft the legislation, we are making sure that 
the right agencies are in charge of the right aspects of all of 
this. So we do not find 6 months from now this is turning into 
a bureaucratic mess and a lot of wasted money. We do not want 
to watch public reaction against some of these things despite 
the strong support today to do everything we can to help.
    So I would urge you to carry that message back. And I would 
be interested, Mr. Chairman, hearing back from the Department 
as to how they might respond to some of these suggestions about 
a structural framework that would then allow our legislation to 
be able to be more efficient in its operation.
    Senator Alexander. Well, if I could interject, I think 
Senator Dodd has an excellent idea, and I like the way he 
suggested it. I agree, I think it is unwieldy to make it a part 
of the legislation. However, we can--before we pass the 
legislation or before we report a bill to the full Senate, I 
think it would be helpful for us to hear from the Secretary how 
she proposes to deal with what Senator Dodd has just suggested. 
That would be step one.
    If we are going to come up with $2.6 billion, more or less, 
for 1 year of emergency money, who is the single person that we 
can look to who is responsible for knowing how that money is 
spent. And then, Senator Dodd, I would suggest that perhaps 
every quarter over the next year that our subcommittee have a 
hearing or a roundtable discussion with Secretary Johnson and 
that person, and conduct a little oversight of our own about 
how things are going.
    So would it be possible for you to get back to us as we put 
this bill together, and tell us how you would respond to 
Senator Dodd?
    Mr. Johnson. Absolutely, and the Secretary, in the 
Secretary's proposal is quarterly payouts anyway, so that would 
be very consistent with what you have said, and we have had 
from the States very specific facility needs that have gone to 
FEMA, but they also send it to us to try to help expedite it, 
and I am sure the Secretary would be willing to discuss this 
idea with you further.
    Senator Dodd. Now, the school construction, I made the 
comment about having that moved to education and getting it out 
of FEMA. Do you agree with that?
    Mr. Johnson. Normally those issues are not issues that the 
Department works with, and even States tend not to deal with 
construction issues. They tend to deal with operational issues. 
So that would be a new role, and I would have to go back and 
talk with the Secretary about that.
    Senator Dodd. It is a temporary thing we are talking about 
here now. But you understood the point I was making a moment 
ago?
    Mr. Johnson. Yes, yes.
    Senator Dodd. There is not a lot of sophistication in my 
view in FEMA for a lot of things, but certainly school 
construction does not strike me as one of their levels of 
expertise.
    Mr. Johnson. As a matter of operating principle, we want to 
be as helpful as we possibly can to getting kids back in school 
and getting a quality education.
    Senator Dodd. Thanks, Mr. Chairman.
    Senator Alexander. Thank you, Senator Dodd.
    Senator Sessions.
    Senator Sessions. Thank you.
    Mr. Johnson, it is a pleasure to be with you, and thank you 
for your opening statement and your concern. We have a lot of 
school systems that are in real crisis. Last week, we had 
superintendents in tears just describing the devastation that 
they have had, and I have certainly seen that in Alabama. We 
have a big 60,000 student system in Mobile County where many of 
the roofs are damaged and some significant--maybe not fatal 
structural damage, but a lot of damage that they are going to 
have to absorb.
    I would like to associate myself with the chairman and 
Senator Dodd's comments about a manager. I have offered a 
resolution that the President designate a coordinator or 
manager for the whole thing, and I would assume each agency 
really probably should do the same. I think it has a lot of 
merit, as things can get out of control.
    Let me ask you a few things to get my mind straight on what 
we are talking about. You have been stressing the need, which I 
think is vital, to get kids back into school as soon as 
possible. Now, is your goal to get them back into the school in 
Biloxi, in Ocean Springs, in Bayou La Batre, or any school if 
they are in Knoxville or Connecticut or North Alabama or where?
    Mr. Johnson. Certainly the priority would be to get them 
back into their own former environments if those environments 
are safe, but we want to get them in school wherever and as 
quickly as possible because that will help create normalcy in 
their environment.
    Senator Sessions. I agree with you there a lot, and 
frankly, even if the school was 90 percent okay and not 
complete, it might be better to have them back in their home 
and in their home school than being away, unless perhaps they 
chose to stay there in a distant school.
    But there is a question, Mr. Chairman, of money. You know, 
the more you spend keeping kids away from their school, the 
less you have to spend to fix up the schools and get the school 
ready where they might like to be permanently. So I think we 
need to think about that. There is no free lunch here.
    Let me ask you this. Let us ask about how the schools that 
will be receiving evacuee children will be paid. If they have 
10 students, I understand you to say, they would be eligible 
for some compensation?
    Mr. Johnson. At least 10, correct.
    Senator Sessions. Ten. Would that be from K through 12 or K 
through 4?
    Mr. Johnson. Any configuration.
    Senator Sessions. Whatever the size of the school is?
    Mr. Johnson. Any configuration, yes.
    Senator Sessions. So if it's a K through 12, you would have 
to have 10?
    Mr. Johnson. Yes.
    Senator Sessions. And you are prepared to pay that school 
90 percent of what they calculate the average cost per student 
is to accommodate those students?
    Mr. Johnson. Yes.
    Senator Sessions. I think that would be beneficial to a 
number of my schools, I assume, and other States too, but how 
did we decide that? Is 90 percent, where did we get this 
figure?
    Mr. Johnson. The idea was to contribute in this 
extraordinary circumstance, Federal dollars to instructional 
costs, and the infrastructure facilities and so forth we 
calculate would be about the other 10 percent, and FEMA would 
handle that part.
    Senator Sessions. So that would be the instructional cost.
    Mr. Johnson. Right.
    Senator Sessions. Do you know what the average school might 
be?
    Mr. Johnson. Seventy-five hundred is the figure that we 
have for the affected areas.
    Senator Sessions. What if a child is in this school for 3 
months, and then returns back home to Louisiana or South 
Mississippi; does it get the full 75 or a proportional amount, 
$7,500 or a proportional amount?
    Mr. Johnson. Remember the money will go out on a quarterly 
basis if this is approved, and doing it that way allows us the 
flexibility that we were talking about earlier. We heard from 
people on the ground, local folk and State level help, ``We 
need help. We need money, and we need flexibility. We need for 
you to be very responsive.'' And we felt that this was one of 
the ways that we could give them the help that they need in as 
quick and orderly and flexible fashion as possible. They like 
what we have proposed.
    Senator Sessions. It is a pretty good deal, frankly. Let us 
say you have first through sixth grades and you have 10 
students, and you may not need to hire a single new teacher and 
you already have enough desks for each one of those 10 new 
students. You just plug them in the school system and you pick 
up $75,000 if they stay there 6 months or----
    Mr. Johnson. Yes, they have to stay the school year.
    Senator Sessions. 7 months?
    Mr. Johnson. Yes, stay the school year. But as you know, 
the devastation is great and----
    Senator Sessions. This is not the devastation. I am talking 
about a school in Knoxville, where people left or went to 
Montgomery or to Mobile from Bayou La Batre or something. You 
are talking about money, are we not, that is going to the 
nonimpacted schools? Some of them may have had impact because 
they may be----
    Mr. Johnson. That is right.
    Senator Sessions. [continuing]. Partially damaged but not 
shut down.
    Mr. Johnson. Correct.
    Senator Sessions. I am just saying they need to be 
compensated. This is a national service to take these kids in. 
I am proud Governor Riley said we will take every child. We may 
get paid or not get paid, whatever, we are taking those 
children. In our community colleges, we are taking them. Maybe 
we will be paid, maybe we will not be paid, but we are not 
going to turn anybody down. I think that is the national spirit 
right now, and I respect that.
    Is my time up? Yes, it is.
    Senator Alexander. Go ahead, Senator Sessions if you have 
other questions.
    Senator Sessions. With regard to your colleges, I had a 
meeting with Congressman Joe Bonner on the Friday after the 
hurricane with President Gordon Moulton at the University of 
South Alabama, Father Foley at Spring Hill College, a Jesuit 
College in Mobile, and Dr. Mark Foley at University of Mobile. 
One of the things they shared greatest concern about is that 
they are afraid that kids whose families have taken big losses 
and who are nervous about what is happening, might drop out of 
school for real or imagined monetary reasons when they really 
should not. Their thought is that it would probably be a 
mistake for a lot of these children to drop out of college, and 
they may not get back in and may be delayed for longer periods 
of time. And for most of them they would do better to stay in 
and see if we could figure out a way to help them stay in.
    You have the loan money. Are there any other things that 
would help a school counselor to share with a student that 
might encourage them to not go back home necessarily, but stay 
in college?
    Mr. Johnson. Well, the three things that I mentioned 
earlier for students in college are the three things that I 
know about, but I will get a response from the people who work 
in that area to you as soon as we get back to the office.
    Senator Sessions. I salute you for your firm position that 
all children should be treated equally, that children who are 
in parochial schools--we have a lot in New Orleans 
particularly--that they should be able to participate in this 
program. Frankly, I think that is just critical. Maybe 25 
percent of the students are in Catholic schools in that area, 
so I think that is important.
    Mr. Chairman, I thank you.
    Senator Alexander. Thank you, Senator Sessions.
    Senator Dodd, do you have any other questions of Mr. 
Johnson before he----
    Senator Dodd. No, thank you. I am sure I do, but I think we 
ought to move along. We have a good panel coming up next. This 
is ongoing. But I would appreciate you getting back to us 
immediately about some of the issues we raised earlier, because 
I think they are very, very important.
    Mr. Johnson. Yes, thank you.
    Senator Dodd. In our consideration as we move forward with 
the legislation, so that would be helpful.
    Senator Alexander. I have just one question following up 
Senator Sessions. Let us take the Houston Independent School 
District, which has 4,700 displaced students, hired 180 new 
teachers, added 37 bus routes and ordered 10,000 new textbooks. 
So if we were to suddenly today pass the President's proposal, 
the Houston Independent School District could come to you and 
get up to $7,500 or 90 percent of the per pupil expenditure in 
Texas, but not more than $7,500?
    Mr. Johnson. Correct.
    Senator Alexander. For each of those students.
    Mr. Johnson. That is correct, assuming they stay the year.
    Senator Alexander. What if they only stay half a year? They 
just get paid for half, Houston just gets one check?
    Mr. Johnson. Remember, the money will go out on a quarterly 
basis, so if the students are not there after that accounting 
period, then they do not get any more money.
    Senator Alexander. I wonder if these teachers they have 
hired are on an annual contract, which teachers usually are. So 
they may be stuck with the teachers but not have the students 
if they go home.
    Mr. Johnson. That is possible, but in most school 
districts, and particularly large school districts, because of 
normal influx of students and students who leave, those things 
sort of average out unless there is a catastrophic occurrence. 
There usually is not that much of a swing in student 
population.
    Senator Alexander. Let us say the children do go home after 
one semester from Houston, that that would be their normal 
impulse? Let us say they go back to the Pascagoula High School. 
Trent Lott said it could be open maybe before too long. So they 
go back for the second semester there. Does Pascagoula High 
School get money under this proposal, or is that a separate 
kind of Federal issue?
    Mr. Johnson. We do not plan to pay twice for the same kid, 
certainly not beyond $7,500.
    Senator Alexander. But say half of it goes to Houston for 
the first two quarters. Then for the second two quarters that 
child finds himself or herself back home. Is this proposal to 
envision that, or is this just for those 372,000 children who 
are displaced?
    Mr. Johnson. It is for the displaced----
    Senator Alexander. When they go back to their home school, 
this program ends and we go back to our----
    Senator Dodd. Title I, the title I provisions that you 
talked about would still apply for that student in Pascagoula I 
presume at this point?
    Mr. Johnson. Yes.
    Senator Dodd. So they would not be requiring the State 
match in that case, which would help that school district, 
allow them to get some assistance directly; is that right?
    Mr. Johnson. I think that is--I will have to----
    Senator Alexander. Could you help us, make sure we think 
about that?
    Mr. Johnson. Yes.
    Senator Alexander. We do not want to create incentives for 
students to stay away longer than they should, and we want to 
understand that clearly before we----
    Mr. Johnson. And all of this still requires some additional 
detailing.
    Senator Dodd. Does it ever. I would also like to know very 
specifically the waiver requests that you will be making. You 
mentioned some of them already, and I heard you say ``no 
blanket waivers'' that would be requested, but I would like to 
know the detailed request for waivers. I am sure my colleagues 
would as well here.
    Senator Alexander. Thank you, Mr.----
    Senator Sessions. Senator, again, to follow up.
    Senator Alexander. Senator Sessions.
    Senator Sessions. What about students who may decide to 
stay more than a year, and this is a 1-year program, and then 
you get 38 Texas Congressmen descending on you saying we need 
to pay another year.
    Mr. Johnson. We have actually had conversation about that, 
Senator, and this proposal----
    Senator Sessions. Not Senators, they would not do that.
    [Laughter.]
    Mr. Johnson. This proposal is for 1 year, and as we get 
more information, you and we will decide further what else 
needs to be done or if anything else needs to be done. But this 
only addresses 1 year.
    Senator Sessions. I think you do well to be clear about it 
because if you do not say it is absolutely 1 year, they are 
going to come back next year. And at some point a child becomes 
a resident, you know?
    Mr. Johnson. Yes.
    Senator Sessions. They decide they are going to be a Texan. 
The Harris County School Superintendent told us he had 900 
students, and what they were hearing from the students was they 
were not going back. He said, frankly, we are hearing they 
intend to stay. I do not know if they will, but that is what 
they are saying, so it is a realistic possibility.
    Senator Alexander. I think that is a good point. My sense 
of things is--and we can each speak for ourselves--it would be 
my feeling that this is a 1-year temporary program, and when it 
is over, we go back to the way we were.
    Senator Dodd. It would take an act of Congress.
    [Laughter.]
    Senator Alexander. And I think it is important for school 
administrators to understand that.
    Senator Dodd. They really have to understand that.
    Senator Alexander. And I think we also are not attempting--
we want to help every single displaced Katrina child, but we do 
not want to build in incentives to keep them from doing what 
they normally would do, which in many cases, I would suspect 
most, is go back where they were from. Now, maybe they will, 
maybe they will not, but we do not want to build in an 
incentive to stay away. I for one, do not think we are likely 
to get consensus on this type of legislation unless it is clear 
that it is a single year emergency disaster relief for the 
Katrina schoolchildren.
    Senator Sessions. Could I share one thing that is 
important? The group that I am worried most about, there are a 
few school systems really impacted by evacuees. For most it is 
a fairly modest increase of students for them, frankly, but it 
is those students in home counties that depend on sales tax, 
and the businesses are shut down, who depend on property tax 
and other things that are not coming in, and they have all 
these repairs that they have to do. And so in truth, we need to 
be sure we focus more on the districts where they are going to 
be receiving those kids coming back as soon as possible. They 
have lost revenue as well as having damages to their school, 
and they are trying to attract the students back promptly and 
get them settled.
    And so incentivizing that for the students who want to come 
back I think should be a pretty high priority.
    Thank you, Mr. Johnson, for being here. You are welcome to 
stay, or if you need to leave, we certainly understand that.
    Mr. Johnson. Thank you.
    [The prepared statement of Mr. Johnson follows:]

                 Prepared Statement of Henry L. Johnson

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to report on the efforts of the Department of Education to 
help States and school districts meet the educational needs of students 
and families displaced by Hurricane Katrina. This is a most timely 
subject, and I truly appreciate the opportunity to discuss the current 
situation in the affected States, how the Department is helping State 
and local officials cope with the aftermath of the hurricane, and the 
President's proposals for assisting schools to educate children 
displaced by the hurricane and for helping communities in the disaster 
area reopen their schools as quickly as possible.

The Situation in Louisiana, Mississippi, and Other Affected States

    Mr. Chairman, in many ways, Hurricane Katrina was an event perhaps 
unlike any in our Nation's history, because of the sheer magnitude of 
the storm and subsequent flooding and the great number of people 
affected. The hurricane and the floods damaged or destroyed so many 
homes, businesses, communications networks, public health facilities, 
and, of course, schools, colleges, and universities. As Congress has 
already recognized, through the rapid approval of two emergency 
supplemental appropriations bills, a disaster of this magnitude calls 
for a national response, with strong Federal leadership. To lead that 
response, President Bush has announced a plan to provide the financial 
and other resources that will be needed to assist the many victims of 
the storm and to restore the infrastructure of the Gulf Coast region. 
As the President told the American people last week, we will work in 
close partnership with the States of Louisiana and Mississippi, the 
city of New Orleans, and other Gulf Coast communities, so that they can 
rebuild in a sensible, well-planned way, getting the job done quickly 
and wisely, and with the Federal Government shouldering the great 
majority of the costs. Just as important, the President's plan includes 
major assistance to communities that have taken in evacuated families, 
part of which involves reimbursement of their schools.
    At Secretary Spellings' direction, high-level Department officials 
have spent many days recently in the Gulf Coast region, viewing the 
situation and working with State and local officials to determine how 
we can best be of assistance. In addition, Deputy Secretary Ray Simon 
and I are in constant communication with the chief State school 
officers in the most affected States, and the Secretary participated in 
a conference call with all chief State school officers in order to gain 
a better understanding of the impact of this disaster on schools 
nationwide.
    In the last 2 weeks, I visited Biloxi, Baton Rouge, and De Soto 
County, a northern Mississippi county that is absorbing a number of 
evacuated families. These visits helped me get an on-the-ground sense 
of the current situation in affected communities and a better 
understanding of what K-12 educators in the region need from the 
Department and the Federal Government. I found that the news reports 
and even the television pictures do not begin to convey the devastation 
wrought by the hurricane and its aftermath. And local educators, 
because they feel responsible for our children, who are so much of the 
Nation's future, are among the most deeply affected. In Biloxi, 
teachers, principals, and school superintendents came up to me, 
literally with tears in their eyes, to discuss what the disaster had 
done to their schools, their programs, and their students. Having 
previously served as superintendent of schools for the State of 
Mississippi, I was affected very personally and very emotionally by 
what I saw down there.
    School districts in the path of the hurricane, where so many 
schools have been shut down, obviously have a major and immediate need 
for assistance in rebuilding. As you know, under legislation passed by 
Congress a decade ago, Federal responsibility for rebuilding schools, 
and for providing trailers and other temporary facilities in response 
to a natural disaster, is assigned to FEMA, not the Department of 
Education. But school authorities in the affected States have many 
other needs, which they are conveying to me and to the other officials 
of the Department who have been to the region.
    Perhaps the most important immediate need is for assistance in 
educating the estimated 372,000 school children displaced by Katrina. 
By our count, 49 States and the District of Columbia have taken in 
displaced families and enrolled their children in their public schools. 
Of those, nine States have more than 1,000 displaced students in their 
schools. Other children are being taken in by private schools around 
the country. For some districts and schools, the number of displaced 
children suddenly enrolled is very significant, and this has resulted 
in strained local resources. No one, of course, had budgeted for this 
additional need when the school year began. I truly commend all the 
local school authorities who have enrolled displaced students and are 
working so hard to care for and educate them. But it is incumbent on us 
to provide them financial compensation for doing so.
    State and local officials have also sought the Department's help, 
and the help of one another, in working through an array of other 
difficult issues. For example, districts have enrolled many children 
with disabilities without having on hand the Individualized Education 
Programs (IEPs) that document their needs and the special services 
those students were entitled to receive; those documents were sometimes 
literally washed away in the storm. The States and districts have 
sought guidance from our Office of Special Education Programs on how to 
deal with this issue. Receiving districts are also enrolling many 12th 
graders, who face special challenges in completing their graduation 
requirements, sometimes passing a high school exit exam, and often in 
assembling transcripts and teacher recommendations to send to colleges, 
even when the transcripts have been lost and the teachers are scattered 
across many States. State and local administrators are working together 
to solve these problems. We thank them, and we are doing what we can to 
help them.

Department of Education Response

    In addition to requesting funding, officials from the most-affected 
States have asked for our assistance on a number of difficult issues, 
especially issues of compliance with Federal requirements in light of 
the disaster. We have tried to respond to these requests as quickly as 
possible, and to provide the affected States with the maximum available 
flexibility. As Deputy Secretary Simon recently put it, we want to 
leave all the red tape in the drawer, and give the States and school 
districts the flexibility they need in dealing with a unique and 
difficult situation.
    Each of three most affected States has sent us requests for waivers 
of the Federal requirements that it believes pose the biggest problems 
in meeting needs resulting from the hurricane. The Department has 
considered each of these requests very carefully, but has also tried to 
get back to the States as quickly as possible. In recent days, we have 
announced a number of new policies, with more to follow. Some of these 
are:

    <bullet> Mississippi and Louisiana requested a waiver of the title 
I ``maintenance-of-effort'' requirement for affected districts, because 
those districts will not have the fiscal resources available to meet 
that requirement. Secretary Spellings has notified the States that we 
are willing to grant that request.
    <bullet> Those two States have also requested an extension of the 
amount of time available for using certain Federal funds because, with 
the immediate need to deal with hurricane-related issues, the States 
may not be able to obligate those funds in the time that would normally 
be available. The Secretary provided an immediate 1-year extension of 
the deadline for obligating Elementary and Secondary Education Act 
funds that would otherwise lapse at the end of this month, and made a 
commitment to work with the States to ease future funding deadlines if 
that need arises.
    <bullet> Texas and Louisiana requested an extension of a number of 
the deadlines for submission of the reports required under the 
Elementary and Secondary Education Act, as amended by No Child Left 
Behind, and under the Individuals with Disabilities Education Act 
(IDEA). We agreed that, in an emergency situation, it would be entirely 
appropriate to extend most of those deadlines, and we are doing so.
    <bullet> In order to make it easier for the Nation's charter 
schools to enroll displaced students (and thus both ease the strain on 
regular public schools and give parents of those children additional 
choices), we have clarified that charter schools that receive Federal 
funds may, in their admissions lotteries, give priority to displaced 
students. We have also offered those schools approximately $20 million 
in additional fiscal year 2005 funding to serve displaced students.

    I should also add a few points regarding waiver requests from the 
States. The first is that, in many cases, we have determined that no 
Federal waiver is needed. The Department has, instead, quickly 
responded to requests for these waivers with clarification of the 
flexibility already available to States under the law.
    A second point is that, on some issues, particularly requests for 
waivers of some of the key provisions of the No Child Left Behind Act, 
our consideration may be taking a little more time, but we still expect 
to respond on a very rapid basis. The Secretary has stated that she has 
no intention of granting a nationwide waiver of the accountability 
provisions of NCLB. Likewise, she has stated that the situation in the 
affected States does not necessitate a wholesale abandonment of the key 
NCLB provisions, even for 1 year. That would be an unwise policy and a 
retreat from NCLB's commitment to holding schools accountable for the 
education of all students. However, as I stated earlier, we want to 
provide flexibility during what we recognize is a very difficult period 
in some of the States.
    My final point in this area is that there are some provisions we 
might like to waive, but cannot. Our authority to waive provisions of 
the Elementary and Secondary Education Act is somewhat limited and, for 
other statutes, such as the Perkins Vocational and Technical Education 
Act and the McKinney-Vento Homeless Assistance Act, it is very narrow 
or nonexistent. Overall, our current authorities are simply not 
adequate, for a situation of this magnitude. This is why the 
President's plan, which I discuss below, includes a broad authority 
that would allow the Secretary to waive, for up to 1 school year, 
statutory or regulatory requirements that she administers or enforces, 
except those related to civil rights or safety, that may impede our 
ability to provide assistance as efficiently and expeditiously as 
possible to individuals or entities affected by the hurricane. We will 
periodically publish lists of the approved waivers to ensure 
transparency and consistency in how they are granted.
    Before turning to the President's legislative proposal, I would 
like to mention one additional element of the Department's response to 
Katrina, the Hurricane Help for Schools web page. This page, which is 
linked to the Department's Web site, provides a vehicle for schools, 
companies, organizations, and individuals to come together to help 
displaced students. Schools use the page to post requests for supplies 
and other resources students need. Companies post information on the 
resources they can provide, and also use it to make direct contact with 
needy districts. Already, some very gratifying things are happening 
through this effort. For instance, 100 evacuees attending Park Ridge 
Elementary School in Baker, Louisiana are getting brand new backpacks 
filled with school supplies, courtesy of the Where to Turn 
organization, which is coordinating its efforts with Staten Island, NY 
schools and businesses. Student evacuees attending St. Mary's Catholic 
School in Longview, Texas are receiving new Brainchild hand-held 
learning devices donated by the Gatrou Group/Brainchild Academy of 
Coral Gables, Florida. And families in Sun Valley, Idaho have so far 
filled 25 backpacks with school supplies and sent them to the Okaloosa 
County schools in Florida and the Sacred Heart School in Los Angeles. I 
am very pleased with the results of this initiative, which we will 
certainly continue in the coming months.

The Administration's Proposal

    A week ago, the President presented the Nation with a plan for 
compensating communities that have absorbed evacuated families, 
including schoolchildren, and for helping the Gulf Coast communities 
get back on their feet as soon as possible. For elementary and 
secondary education, the plan includes two major elements, along with 
the broad waiver authority I just described.

    <bullet> We are requesting up to $1.9 billion dollars to reimburse 
receiving school districts for the costs of educating displaced 
students this year and to assist affected districts in reopening their 
schools. Our plan would provide direct grants, from the Department to 
the district, to any district that enrolls at least 10 displaced 
students during school year 2005-06. In order to ensure that the funds 
flow to districts that are currently enrolling displaced students, and 
in recognition of the fact that evacuated families are likely to be 
very mobile, we would make these payments on a quarterly basis, based 
on quarterly enrollment counts. We propose to pay each district a sum 
equal to 90 percent of the State's average per-pupil expenditure for 
elementary and secondary education, up to a maximum of $7,500 per 
student. This amount would be intended to cover the full instructional 
costs of serving evacuated students, and some three-quarters of costs 
of student support services and administration.
    Districts receiving these funds would have broad flexibility in how 
they spend them. They could use the money to pay staff salaries, 
purchase materials and equipment, provide for building maintenance or 
transportation, provide special services for limited English 
proficient, disabled, or other students, or meet any other expenses 
that school officials determine are most needed. The funding would thus 
be much like the general assistance we provide under the current Impact 
Aid program. We do not believe it would be appropriate to provide more 
``categorical'' support and make the decisions in Washington about how 
these funds are used at the local level.
    For Louisiana and Mississippi, this new funding would provide 
assistance both in serving displaced students and in helping districts 
in the Gulf Coast region reopen. For those two States only, we would 
grant the money to the State educational agency, rather than directly 
to districts, and then State officials would distribute funds both to 
districts serving evacuated students (for assistance in serving those 
students) and to Gulf Coast districts (for reopening schools).
    <bullet> The second major element of our proposal, as it relates to 
elementary and secondary education, is assistance to evacuated families 
that choose to enroll their children in private schools. As you know, 
many of the schoolchildren who had to leave the Gulf Coast region were 
private school students. Communities in Louisiana that were affected by 
the hurricane and flooding had an above-average number of children in 
private schools--some 61,000 were in private schools, compared to 
187,000 students in public schools, in the four most affected parishes. 
In other words, about 25 percent of the students in those parishes 
attended private schools, compared to a national average of 11 percent.
    We believe that the families of those children, as well as other 
families, should have the opportunity to enroll their children in 
private schools in their new locations. And just like we have seen with 
public schools across the country, many displaced students are already 
enrolled in private schools. These schools have graciously opened their 
doors in this time of need, and we ought to take that into account. 
Moreover, in some communities, the availability of private school slots 
may ease capacity concerns in the public schools, if the families, many 
of whose financial resources have been decimated, are provided support 
for paying private school tuition.
    To address these issues, our proposal includes up to $488 million 
for assistance to displaced families that enroll their children in 
private schools. We would make emergency, one-time grants to the 
States, which would in turn make assistance available to those 
families. Much like the public school assistance proposal, we would 
provide for each private school student a grant of up to 90 percent of 
the State per-pupil expenditure or $7,500, except that the maximum 
amount could not exceed the student's tuition, fees, and transportation 
expenses. Finally, in order to ensure that these benefits go to 
families with the greatest need, our proposal would require the 
Secretary to limit participation to families with incomes or assets 
below a certain level.

    I know that the Congress, including members of this subcommittee, 
is considering other proposals for educational assistance related to 
Hurricane Katrina, and that some of those proposals are very similar to 
those put forward by the President. I believe that, on balance, the 
President's plan provides the best combination of flexibility and 
accountability needed to meet the emerging needs of students and 
families affected by the hurricane. At the same time, I know that 
Secretary Spellings looks forward to working with you--and listening to 
your concerns as you continue to hear from your States and 
constituents--to develop a comprehensive and effective package to 
compensate communities and help reopen schools.
    Mr. Chairman, this concludes my statement. I am sure the members of 
the subcommittee agree with me that the situation in the Gulf Coast 
region is extraordinary, and that an extraordinary situation demands 
some extraordinary actions. I urge you to accept the President's 
proposals for elementary and secondary education for areas affected by 
the hurricane.
    I would be happy to answer any questions you may have.

    Senator Alexander. I would like to invite our next 
witnesses to come. I have already introduced them, and I will 
ask them to testify in the order in which they come. Darryl 
Gates, who is a middle school special education teacher from 
Shreveport, LA; Sister Michaeline Green, Superintendent of 
Schools for the Catholic Diocese of Baton Rouge, LA; Rodney R. 
LaFon, who is Superintendent of the St. Charles Parish Public 
Schools in Luling, LA; and Mike Stein, who is President of the 
Margolin Hebrew Academy in Memphis, TN.
    Let's see. Why don't we start with--well, we will just go 
right down the line here. Why don't we start with Mr. LaFon, 
then Mr. Gates, then Mr. Stein, and then Sister Green. And may 
I suggest to each of you that we have a little machine here--
there is one there--which records 7 minutes. We have your 
testimony, and we have all read it, and it would help us 
understand things best if you would just tell us in your own 
words as much as possible in about 7 minutes what your 
recommendations to us are. If you need more time than that, we 
will give you more time than that. But if you stick to that, we 
could hear your testimony in about a half hour, and then that 
would give us time to ask you more questions.
    Thank you very much for coming, Mr. LaFon.

  STATEMENTS OF RODNEY R. LaFON, SUPERINTENDENT, ST. CHARLES 
 PARISH PUBLIC SCHOOL SYSTEM, AND MEMBER, AMERICAN ASSOCIATION 
  OF ADMINISTRATORS GOVERNING BOARD, LULING, LA; DARYL GATES, 
 MIDDLE SCHOOL SPECIAL EDUCATION TEACHER, YOUREE DRIVE MIDDLE 
  SCHOOL, SHREVEPORT, LA; MICHAEL STEIN, PRESIDENT, BOARD OF 
DIRECTORS, MARGOLIN HEBREW ACADEMY, MEMPHIS, TN; AND SISTER M. 
 MICHAELINE GREEN, O.P., SUPERINTENDENT OF SCHOOLS, DIOCESE OF 
BATON ROUGE, LA, AND CHAIRPERSON, NONPUBLIC SCHOOL COMMISSION, 
       LOUISIANA DEPARTMENT OF EDUCATION, BATON ROUGE, LA

    Mr. LaFon. Good afternoon. I am Rodney LaFon, 
Superintendent of Schools in St. Charles Parish in Louisiana, 
and I am a member of----
    Senator Alexander. Could you push your microphone button? 
Thank you.
    Mr. LaFon. Sorry about that. I am a member of the American 
Association of School Administrators Governing Board. Again, I 
thank you, Chairman Alexander, and Senator Dodd and members of 
this subcommittee. I think what you are doing today is very, 
very important and has far, far-reaching, you know, information 
that could take us down the road.
    St. Charles Parish Public Schools, we are located about 20 
miles outside of New Orleans, and we were an impacted district. 
And I don't know--I know that you talked to Dr. Diane Russell 
of Jefferson Parish about a week ago, and she is hoping to get 
our schools up and running on October 3rd. St. Tammany Parish 
is also trying to do the same thing. I have for the record here 
a statement from Doris Voitier, who is the Superintendent of 
St. Bernard Parish Public Schools, where there was serious, 
serious devastation. And I hope that you have a chance to read 
that.
    Senator Alexander. We will be glad to read it and to 
include it in our record. Thank you.
    Mr. LaFon. Thank you very much.
    I think what I bring you today as an impacted district is 
the fact that, while we began opening schools last Thursday on 
the same day that we opened for the 10,000 children we had, we 
found that we had 1,300 more new students that wanted to come 
to St. Charles Parish, and that goes along with some of what 
has been said today already. And I would like to talk to that a 
little bit, if you don't mind.
    It is our job as public school people, public school school 
boards, to embrace these children and make sure that they 
receive a quality education. And that is what St. Charles 
Parish is trying to do right now as we speak. When we opened, 
we took back our children that were with us right before the 
hurricane, the 10,000 students who were already enrolled, and 
got back to our business, which is teaching and learning. And 
we did a good job of that, I believe.
    But as we got the influx of the 1,300, we had to decide 
what we were going to do and how we were going to make sure 
that they became a part of St. Charles Parish Public Schools, 
that they needed to be included in everything we did.
    So as we looked at our numbers, we realized that 
approximately 50 percent of the students who had enrolled in 
our schools were from private schools from Jefferson, Orleans, 
and areas where the flooding took place. So we immediately 
worked to make sure that those students had an opportunity to 
get in our schools, and I want to come back and talk about what 
I think should be some of the waivers regarding those students 
in a minute.
    And then we put a plan in place where we registered, in 
fact, today and yesterday, all of the rest of the 1,300 
students who are from Jefferson, Orleans, St. Bernard, 
Plaquemines, and even Mississippi. And on Monday and Tuesday, 
those students will come to St. Charles Parish Public Schools. 
And we will have schedules for them. We have hired 25 
additional teachers, and we know we are going to need more. And 
we are putting something in place to make sure that they fit 
right in and they are going to get the quality education that 
they deserve at a time of crisis.
    You know, what is important to us in St. Charles Parish is 
that we get everything in that parish, especially the school 
system, back to normalcy. That is the key--making things normal 
for the parish and the residents of St. Charles Parish, and 
those children are key to that.
    I think, you know, it is important for you to know that in 
St. Charles Parish we have a nuclear plant, Dow Chemical, Shell 
Chemical, Shell Oil, Valero, Oxychem, Monsanto, and I could go 
on and on. And what those plants asked us to do was try to get 
back and up and running as quick as possible.
    Now, we were impacted. We had $5 million worth of damage to 
our facilities. But we said we can make this work. And when we 
opened last Thursday, we opened with an 80 percent workforce. 
So that meant we had to hire teachers to go ahead and take care 
of the kids we already had and hire another 25 teachers to deal 
with the numbers that are now coming on Monday and Tuesday. And 
I think that is critical.
    We needed to make sure that we take care of these children, 
not only academically but emotionally as well. And, you know, 
we need to step to the plate to do that. We are going to be 
spending about $7 million to embrace these children. You know, 
you just cannot take them and, you know, throw them in your 
classrooms. You have got to provide certified teachers. We had 
transportation problems, so we leased 18 more buses. We leased 
another 10 portable buildings.
    Food services--some people don't think about that. Let's 
remember that St. Charles Parish Public Schools were totally 
shut down for 8 days, and we had no electricity. So all the 
food we had in our freezers was totally lost, $100,000 worth of 
food.
    Now we are opening up for 10,000 children, and now we are 
taking another 1,300, and we need help getting the vendors to 
actually come to the plate and provide the appropriate food 
that we are looking for because we have not been able to find 
those vendors.
    In St. Charles Parish, electricity was out. Still, phone 
service is not back to normal. In fact, I can tell you right 
now as we speak, phone service in our school system is down 
because we are now experiencing problems with Bell South and 
what is happening with the storm. In fact, about 2 hours ago, I 
had to shut down St. Charles Parish Schools for tomorrow so 
that we can prepare for the storm and open up shelters for 
parents and students who could be displaced because of street 
flooding or tropical storm winds. Now, that might not happen, 
but we cannot take the chance and, you know, wait until the 
last minute. We have to make sure we keep in mind the safety of 
our children and our constituents.
    So having said that we spent the last 2 days registering 
and making sure we are going to be ready for these students on 
Monday, these 1,300, here I am shutting down schools again. And 
I want to go back to that figure of $7 million because that is 
critical. The St. Charles Parish School Board stepped to the 
plate and said, You know what? This is the right thing to do 
for kids. And we know the Federal Government and State 
government will come through later. But up to now, as the 
superintendent, I have not seen any Federal Government person 
or State government person say, Yes, you know what? We are 
going to make sure you get taken care of for what you have done 
for children. And I hope that that happens, Senators. And I 
hear you talking about it, but it needs to happen fast.
    You want school systems to step to the plate. We want to 
step to the plate, and we are stepping to the plate, especially 
when you consider we are an impacted district. We like to think 
of ourselves now as an assistive district, which means we are 
hoping to assist districts such as Jefferson, such as Orleans, 
and help them get back on track, because now we have put a plan 
in place to make sure we do it right. And thank God we have a 
school board that truly cares and has allowed us to do that.
    If I might just change gears a minute and talk just a 
little bit about some of the relief we need with regard to 
waivers. As I said, there are a lots of Federal regulations out 
there, the No Child Left Behind. You know, it is going to be 
unfair to students in schools and districts to hold them 
accountable for many of those requirements during this most 
unusual time. Teachers are not able to meet the No Child Left 
Behind definition of highly qualified because many of the 
universities are closed because they got flooded and classes 
were canceled. I think that is something that the Federal 
Government and the Secretary need to look at very carefully.
    Another thing that I think is very important is that this 
disruption of the education of our students and the unsettled 
living conditions that many of our families are experiencing 
make test scores unreliable this year. As a result, any 
conclusions formed about student achievement and annual yearly 
progress is going to be unreliable. And I hear you talking 
about 1 year. I think that is what everybody needs to be 
talking about with regard to waivers. I don't think St. Charles 
Parish Public Schools or any other school system is asking for 
anything unfair when we say we need some waivers to loosen up 
things a little bit and be a little compassionate for these 
children, you know, that have been displaced, for our teachers 
that have been displaced.
    I have over 50 teachers that have been displaced. They are 
living with friends, relatives. But you know what? Still 
working with FEMA to this day, we don't have a place for those 
teachers to live. And yesterday I had two teachers who cried 
when they talked to me about it, ``Dr. LaFon, when are we going 
to have a place to live? We want to keep our jobs in St. 
Charles Parish, but I have to have a place.''
    So we are working on 8-foot-by-30-foot travel trailers to 
put these teachers in who are willing to live there to do their 
jobs for children. That is a true educator. You know, those are 
people who have hearts.
    What I am here talking about is just that. When you talk 
about this funding, it is very, very critical that all school 
systems, all schools receive the appropriate funding for these 
children. In St. Charles Parish, we spend about $8,500. You are 
talking about $7,500, talking about 90 percent. I am not in 
your shoes, but I can tell you, in the area where I am from in 
St. Charles Parish, an impacted school district, who said we 
are going to not only take our students back but those students 
who have been displaced as well, and we know those numbers are 
going to fluctuate, but we are willing to do that because it is 
the right thing to do for children and it is the right thing to 
do for education.
    One other thing and I will stop. Finally, the McKinney-
Vento act wasn't designed to address large numbers of students 
displaced because of catastrophic events as we are now 
experiencing. Some kind of legislation should be presented to 
amend this law to make provisions for schools and school 
district to have time to prepare for an infrastructure and put 
it in place so when these students arrive they get a quality 
education.
    So I will leave you with this: To this date, I have not 
heard any firm commitment from the State or the Feds with 
regard to funding assistance and regulatory relief for our 
school district.
    St. Charles Parish Public Schools and the St. Charles 
Parish School Board have made a commitment, and we have put a 
plan in place to make it happen, addressing our core business--
teaching and learning.
    Gentlemen, I ask for your support and assistance to make 
sure school districts get the dollars they need as soon as 
possible. I thank you.
    Senator Alexander. Thank you, Mr. LaFon, and thank you for 
making the trip here today in difficult circumstances. And 
thank you for sticking pretty close to 7 minutes. If you can do 
that, we will have more time for questions. I did not want to 
cut you off because you have come a long way and you have got a 
lot to say. But I also want Senator Sessions and Senator Dodd--
we want to get down to the details.
    [The prepared statement of Mr. LaFon follows:]

                   Prepared Statement of Rodney LaFon

    Good afternoon, I am Rodney LaFon, superintendent of the St. 
Charles Parish Public School System and a member of the American 
Association of Administrators Governing Board. Thank you Chairman 
Alexander, Senator Dodd, and members of the Subcommittee on Education 
and Early Childhood Development for allowing me the opportunity to 
speak before you today.
    St. Charles Parish Public Schools, located about 20 miles from New 
Orleans, is in a unique situation as we have been directly impacted by 
Hurricane Katrina and are now positioned to offer assistance to our 
neighboring school districts. By State definition, St. Charles is both 
an impacted district and an assisting district.
    St. Charles Parish was under a mandatory evacuation. The school 
district sustained $5 million in damages initially classifying us as an 
``impacted district.'' We were without electricity for days. Some areas 
of the district are still without phone service. People continue to 
stand in line to shop at local grocery stores. Some streets are lined 
with hurricane debris. Fifty of our teachers lost their homes during 
the storm and are living with relatives and colleagues. Assistance with 
temporary housing through FEMA has been slow.
    Despite these overwhelming challenges, we continue to work 
collaboratively with other St. Charles Parish governmental agencies to 
re-establish normal school and work routines.
    Without the extraordinary efforts made by these agencies along with 
countless volunteers, St. Charles Parish Public Schools would not be in 
the position to now assist other impacted districts.
    After losing 12 school days due to Katrina, schools re-opened last 
week for our 10,000 students who were enrolled prior to the hurricane. 
At the same time we have received 1,300 requests to enroll students. 
Approximately one third of these students already live in St. Charles 
Parish but previously attended private schools in neighboring parishes. 
The remaining two-thirds have been displaced from their homes and have 
moved to our district to live with relatives and friends. As the year 
progresses, we expect our student population to fluctuate as families 
continue to move from one area to another seeking permanent housing.
    Each family comes to us with worries about how they will cope with 
their overwhelming losses. They wonder if their children will ever feel 
safe again. Our challenge is to not only meet the educational needs of 
these children but to also address the emotional well-being of these 
children during this time of crisis.
    The children we are enrolling have endured many hardships within 
the last few weeks. Multiple families are living together, parents are 
without jobs, and children are worried about what tomorrow will bring. 
To offer some stability during these uncertain times, St. Charles 
Parish developed a plan to offer these children a quality education.
    Staff has been working endless hours to develop a plan that will 
maintain the quality education provided to students prior to Katrina 
and to offer this same education and support to meet the needs of the 
students that we welcome into our school system who have been displaced 
by the hurricane. To do so, we had to make decisions about class sizes, 
classroom facilities, staffing, support services, special education 
services, transportation, food services, and materials and supplies 
without a commitment from State and Federal Government about how we 
will pay for these extra costs. To accommodate the additional students 
we have increased class sizes, converted available spaces to classrooms 
in existing schools, leased 18 school buses and 10 temporary classrooms 
and we have employed 25 additional teachers knowing we will need more. 
After losing almost $100,000 in perishable food due to the power 
outage, our school cafeterias have had to re-stock to provide breakfast 
and lunch for students. Some of the enrolling students have severe 
disabilities requiring specialized equipment, health services, and 
additional personnel.
    While we are willing to do our share to help our citizens and 
neighbors, we need immediate assurance that the residents of St. 
Charles Parish will not bear this financial burden alone. It is time 
for State and Federal officials to make commitments about funding. 
Educating the additional students will cost approximately $7,000,000 
for the current school year.
    This includes salaries for additional teachers, bus transportation, 
temporary classrooms, and instructional materials and equipment. As a 
relatively small school district, St. Charles Parish can not afford to 
absorb these additional costs. Federal funds need to be made available 
immediately as many of the expenses that we are incurring--such as 
teacher salaries--must be paid monthly.
    We also need relief from some Federal regulations. While we will 
continue to strive to achieve the goals of legislation such as NCLB, it 
would not be fair to students, schools, or districts to hold them 
accountable for many of these requirements during this most unusual 
year. Teachers are not able to meet the NCLB definition of ``highly 
qualified'' because many of the universities they were attending were 
flooded and have had to cancel classes. The disruption in the education 
of students and the unsettled living conditions that many families are 
experiencing make test scores unreliable this year. As a result, any 
conclusions formed about student achievement and annual yearly progress 
will be unreliable.
    Approximately 50 percent of the students registering in St. Charles 
Parish previously attended private schools. The No Child Left Behind 
legislation and State accountability did not apply to these students 
when they attended private schools. Now that they are enrolled in 
public school settings, these students are expected to comply with 
accountability regulations that impact both students and districts.
    Finally, the McKinney-Vento Act was not designed to address large 
numbers of students displaced by catastrophic events as the one we have 
experienced. Legislation should be presented to amend this law to make 
provisions for schools and school districts to have time to prepare and 
put an infrastructure in place that will support these students 
academically and emotionally.
    To date there has been NO FIRM commitment from the State and 
Federal Government to provide funding assistance and regulatory relief 
for our district.
    St. Charles Parish Public Schools has made a commitment to these 
students and has developed a plan to ``make it happen'' addressing the 
district's core business--teaching and learning.
    We need your immediate assistance and support!

    Senator Alexander. Mr. Gates, thank you for being here.
    Mr. Gates. Good afternoon, Senator Alexander, Senator Dodd, 
and members of the committee. Thank you for the opportunity to 
provide testimony today. My name is Daryl Gates, and for 28 
years I have been a public school teacher. I am currently a 
special education teacher at Youree Drive Middle School in 
Shreveport, LA, as well as an adjunct instructor at Southern 
University in Shreveport. I am also a member of the National 
Education Associations IDEA Cadre. We are a 26-member group of 
professional educators who provide professional development 
about IDEA to educators and community members across the 
country. In all my years of teaching, one thing remains true: 
schools and teachers are anchors of stability in children's 
lives. In the wake of Katrina, stability, normalcy, a sense of 
community, and a sense of belonging are desperately needed.
    Since Hurricane Katrina hit, my district has enrolled 
approximately 1,400 displaced students, and we have hired 40 
teachers and 18 administrators and support personnel from the 
New Orleans area. For the most part, these colleagues and 
students are living in community shelters, church shelters, and 
temporary housing. As of yesterday, my superintendent was 
preparing for evacuee students who were in Houston to be 
relocated to our district in light of Hurricane Rita. Our 
district is having trouble getting needed funds from FEMA to 
buy textbooks. Each textbook costs between $50 to $55. That 
means that it will cost an average of $250 per child to prepare 
them properly to attend school. That is $350,000 just for 
books.
    Our district needs buses. Transportation costs have risen 
since fuel prices are high, and the buses' routes have expanded 
to include stops at shelters and churches. We will also need to 
hire additional teachers to ensure that class sizes don't begin 
to impede individualized instruction or hamper our efforts to 
address NCLB requirements. These are some of the hard costs 
associated with Hurricane Katrina and its aftermath. But I also 
want to be sure that you are aware of some of the other costs 
that we need to provide, such as counseling and other types of 
supports for children and their families.
    The children from New Orleans who have enrolled in my 
district are dealing with many changes and many new things. 
Some of them are showing signs similar to acute trauma stress 
syndrome. They seem frightened, angry, depressed and/or a 
combination of the three. Several fights have occurred between 
the displaced students and the students who are lifelong 
residents. The reason? The children from New Orleans feel that 
much has been taken from them--their loved ones, their homes, 
their valued possessions, and their lives as they know them. 
They have nothing. They have to wear hand-me-down clothes while 
the children from our communities may come to school wearing 
designer brand clothing. The hostility is a symptom of 
traumatic stress syndrome. They have feelings of loss and need 
to find a target for their anger.
    Some of the educators I have met also seem to be in denial. 
This, too, is an understandable human response that many may 
experience when trying to cope with unimaginable loss and 
shock. The needs are huge, but the public schools in Louisiana 
are responding.
    Our district has instructed school counselors to meet with 
all of the displaced students either individually or in small 
groups, and we are allowing parents access to these counseling 
services as well. The immediate need is funding for training to 
prepare more persons to provide counseling. When parents of 
displaced children have come into our schools and indicated 
that their child had an individualized education plan or 
special education plan from the previous school, we didn't ask 
questions. We provided services. It is too important to us that 
these children continue receiving the services they need. More 
counselors and behavior interventionists have been hired. 
Students who have behavior difficulties are being evaluated and 
behavior plans are being written for them.
    The adjustments being made in my school and in my district 
are evidence that our public schools are designed to provide 
the widest possible array of services for children and their 
families quickly to allow for transition to a semblance of 
normalcy and stability. We are uniquely equipped to bring the 
skills and expertise of a variety of highly trained 
professionals, whether they be counselors, school 
psychologists, special education teachers, social workers, or 
others. At the end of the day, we have one goal: to meet the 
needs of each student in a way that allows for student success.
    Last year, Louisiana adopted a statewide comprehensive 
curriculum. That means that the same skills are being taught 
across the State at the same time. Displaced public school 
students will have the academic continuity they need, but I 
want to stress to you that a student won't be able to sit at a 
desk and concentrate on two plus two when his mind is still 
attempting to cope with the disruption and loss that has 
occurred in his life. If we ignore that and expect business as 
usual from our schools and students, we will commit an 
unbelievable act of negligence.
    For now, Shreveport is coping. At some point, the funds 
will run out, but the problems will remain. We need more 
funding for counselors and mental health professionals to 
continue to help our children and their families deal with 
issues that will remain long after buildings have reopened or 
been rebuilt.
    Thank you today for allowing me to testify before you. I 
hope that Congress can act quickly and in a bipartisan manner 
to provide resources and to help us deliver hope to the many 
who need it.
    Thank you.
    Senator Alexander. Thank you very much, Mr. Gates, and 
thank you for making the trip here today.
    [The prepared statement of Mr. Gates follows:]

                   Prepared Statement of Daryl Gates

    Good afternoon, Senator Alexander, Senator Dodd, and members of the 
committee. Thank you for the opportunity to provide testimony today. My 
name is Daryl Gates and for 28 years I have been a public school 
teacher. I am currently a special education teacher at Youree Drive 
Middle School in Shreveport, Louisiana, as well as an adjunct professor 
at Southern University in Shreveport. I am also a member of the 
National Education Association's IDEA Cadre. We are a 26-member group 
of practicing educators who provide professional development about IDEA 
to educators and community members all across the country. In all my 
years of teaching, one thing remains true: schools and teachers are 
anchors of stability in children's lives. In the wake of Katrina, 
stability, normalcy, and a sense of community and belonging are 
desperately needed.
    Since Hurricane Katrina hit, my district has enrolled 1,400 
displaced students and we've hired many teachers from the New Orleans 
area. For the most part, these colleagues and students are living in 
shelters, church shelters, and temporary housing. At my school alone, 
we have many new students from New Orleans and we have no way of 
knowing how high that number will climb as families continue to 
relocate. As of yesterday, my superintendent was preparing for evacuee 
students who were in Houston to be relocated to our school district in 
preparation for Hurricane Rita. Our district is having trouble getting 
needed funds from FEMA to buy textbooks. Each textbook on average costs 
between 50 to 55 dollars. That means that it will cost an average of 
$250 per child to properly prepare them for classroom work and 
homework. That's $350,000 just for books that is needed. We have 
received many donations of clothing and gift cards to buy school 
uniforms. My school is one of many in our district that has a school 
uniform policy. Our district needs more buses. Transportation costs 
have gone up since fuel prices are high and the buses routes have 
expanded to include stops at shelters and churches. We will also need 
to hire additional teachers to ensure that class sizes don't begin to 
impede individualized instruction. These are some of the hard costs 
associated with Hurricane Katrina and its aftermath, but I also want to 
make sure you're aware of some of the other costs that we need to 
acknowledge and provide for, such as counseling and other types of 
supports from children and their families.
    The trauma to thousands and thousands of lives is very real and has 
only begun to manifest itself. The children from New Orleans who have 
enrolled in my district are dealing with so many changes, so many new 
things. Some of them are showing signs similar to ``post-traumatic 
stress syndrome.'' They seem frightened, angry, depressed, or a 
combination of all three. Several fights--pushing and shoving--have 
broken out between the displaced students and the children who are 
long-time residents. Why? The children from New Orleans feel that so 
much has been taken from them--loved ones, their homes, their valued 
possessions, and their lives as they know them. They have nothing. To 
top it off, they have to wear hand-me-downs while the children from our 
community come to school in designer brands to satisfy the uniform 
requirement. The hostility is understandable given their feelings of 
loss and their equally understandable need to find a target for their 
anger.
    The educators I've met seem to be in denial. One teacher is living 
in a gym in Houston. She says she is not going back to New Orleans. 
Instead she is moving to Baton Rouge. But she is so depressed that she 
is not yet able to go to look for a job. And, she now is responsible 
for her 90-year-old mother who was in a nursing facility in New Orleans 
but must now live with her. She refuses to talk about New Orleans. 
This, too, is an understandable human response that many go through 
when trying to cope with unimaginable loss and shock.
    The needs are huge, and the public schools in Louisiana are 
responding. We are opening our doors and arms to students and their 
families. So far, we've been able to provide the services that our 
children need, but we don't know how far the resources can be 
stretched. Our school has instructed school counselors to meet with all 
of the displaced students either individually or in small groups. We 
even are allowing parents access to these counseling services as well. 
When parents of displaced children have come into our school and 
indicated that their child had a special education Individualized 
Education Plan in their previous school, we simply provided the 
services. We didn't stop to ask for documentation--it was too important 
to us that these children continue receiving the services they need. 
More counselors and behavior interventionists have been hired. Students 
who have behavior difficulties are being evaluated and behavior plans 
are being written for them.
    The adjustments being made in my school and in my district are 
evidence that our public schools are designed to provide the widest 
possible array of services for children and their families. We are 
uniquely equipped to bring the skills and expertise of a variety of 
skilled professionals--whether they be counselors, school 
psychologists, special education teachers, social workers, and more. At 
the end of the day, we have one job: to meet the needs of each student 
in a way that allows them to succeed.
    Some might wonder whether our displaced children will have to 
adjust to a different curriculum. While that will probably be the case 
in other States, one advantage for our students is that our State 
adopted a statewide comprehensive curriculum last year. So, for the 
first time, the same skills are being taught across the State at the 
same time. It is one way we can provide the continuity to these 
students that they need. But I want to stress to you that a student 
won't be able to sit at a desk and concentrate on 2+2 when his mind is 
still attempting to cope with the unfathomable disruption and loss that 
has occurred in his life. If we ignore that and expect business as 
usual from our schools and students, we will commit an unbelievable act 
of negligence.
    For now, Shreveport is coping, but at some point, the funds will 
run out and the problems will remain. We need more funding for 
counselors and mental health professionals so that we can continue to 
help our children and their families deal with issues that will remain 
long after buildings have reopened or been rebuilt.
    Thank you very much for allowing me to testify today. I hope that 
Congress can act quickly and in a bipartisan manner so that resources 
and hope can be delivered to so many who need it.

    Senator Alexander. Mr. Stein, from Memphis.
    Mr. Stein. Thank you, Mr. Chairman and distinguished 
members of the committee. Good afternoon. My name is Mike 
Stein, and I am a senior vice president of investments for 
Wachovia Securities in Memphis, TN. I also serve as President 
of the Board of Directors of the Margolin Hebrew Academy, and 
it is in this role that I am honored to speak to you today.
    The Margolin Hebrew Academy is an Orthodox Jewish day 
school with an enrollment of 250 students from pre-kindergarten 
through the 12th grade, providing a dual curriculum of Judaic 
and general studies. We strive to provide a high level of 
academic excellences and simultaneously meet the needs of each 
individual student.
    As we all watched the unprecedented devastation and 
destruction of Hurricane Katrina on the Gulf Coast, we knew 
that many families would be evacuating to Memphis. I 
immediately met with our administrative staff to discuss how 
our school could best serve the needs of these families. Our 
school adopted a policy of ``doing whatever it takes,'' even 
though there was no way of knowing the cost and where the money 
would come from.
    During the week of August 28th, our school enrolled 24 
students ranging in age from 3 years to 17, increasing our 
school current population by 10 percent. Their educational, 
emotional, and physical needs varied, and we attempted to 
address all of these areas, and I believe so far we have made 
their transition as smooth as possible under these unparalleled 
circumstances.
    Let me share with you some of the assistance we provided:
    Free tuition--no questions asked. The children were given 
school uniforms, textbooks, meals, and all supplies. We hired 
additional staff to ensure that our new students from the Gulf 
Coast would not be left behind.
    Dr. David Pelcovitz, a professor of psychology at Yeshiva 
University in New York, flew to Memphis to conduct sessions 
with the students and families from New Orleans, as well as our 
entire staff. Dr. Pelcovitz has extensive experience in post-
traumatic stress treatment from his involvement with many 9/11 
families.
    Our staff and parent body created a network to secure 
housing, clothes, food, transportation, and medical needs in 
conjunction with the Memphis Jewish Federation and Jewish 
Family Service.
    As we all know, the needs are great and ongoing. Our school 
is closely monitoring the progress of each student, both 
educationally and emotionally, with the goal of allowing the 
children to adjust to their new environment, without being 
labeled, allowing students to be students and not evacuees.
    I have personally been inspired by the selflessness and 
dedication of so many individuals in our school community and 
across the Nation. We will fulfill our pledge, but it is our 
hope and expectation we will be included in any assistance the 
Government chooses to make.
    I appreciate this concern that the committee has shown for 
the children and the families, and I thank you for allowing me 
to share some of my experiences.
    Senator Alexander. Thank you, Mr. Stein, and thank you for 
coming.
    [The prepared statement of Mr. Stein follows:]

                  Prepared Statement of Michael Stein

    Good afternoon, my name is Mike Stein and I am a senior vice 
president of investments for Wachovia Securities in Memphis, Tennessee. 
I also serve as president of the board of directors of the Margolin 
Hebrew Academy. It is in this role that I am honored to speak to you 
today.
    The Margolin Hebrew Academy is an Orthodox Jewish day school with 
an enrollment of 250 students from pre-kindergarten through the 12th 
grade, providing a dual curriculum of general and Judaic studies. We 
strive to provide a high level of academic excellence and 
simultaneously meet the needs of each individual student.
    As we all watched the unprecedented devastation and destruction of 
Hurricane Katrina on the Gulf Coast, we knew that many families would 
be evacuating to Memphis. I immediately met with our administrative 
staff to discuss how our school could best serve the needs of families. 
Our school adopted a policy of ``doing whatever it takes,'' even though 
there was no way of knowing the cost and where the money would come 
from. During the week of August 28th, our school enrolled 24 students 
ranging in age from 3 years to 17, increasing our school current 
population by 10 percent. Their educational, emotional and physical 
needs varied, and we attempted to address all of these areas, and I 
believe so far we have made their transition as smooth as possible 
under these unparalleled circumstances.
    Let me share with you some of the assistance we provided:
    Free tuition--no questions asked. The children were given school 
uniforms, textbooks, supplies and school lunches. We hired additional 
staff to ensure that our new students would not be left behind due to 
the fact that our school year began August 17th.
    Psychological support--Dr. David Pelcovitz, a professor of 
psychology at Yeshiva University in New York, flew to Memphis to 
conduct sessions with the students and families from New Orleans as 
well as our entire staff. Dr. Pelcovitz has extensive experience in 
post traumatic stress treatment, including his involvement with many 9-
11 families.
    Our staff and parent body created a network to secure housing, 
clothes, food transportation and medical needs in conjunction with the 
Memphis Jewish Federation and Jewish Family Service.
    As we all know, the needs are great and ongoing. Our school is 
closely monitoring the progress of each student, both educationally and 
emotionally. With the goal of allowing the children to adjust to their 
new environment, without being labeled--allowing students to be 
students and not ``evacuees.''
    I have personally been inspired by the selflessness and dedication 
of so many individuals in our school community as well as all across 
the country.
    I appreciate this committee's concern for the children of the Gulf 
Coast. Thank you for allowing me to share some of my experiences with 
you.

    Senator Alexander. Sister Green?
    Sister Green. Good afternoon, Senators. I am Sister Mary 
Michaeline Green, Superintendent of Schools for the Diocese of 
Baton Rouge, and I also serve as the chairperson for the 
Nonpublic School Commission for the Louisiana Department of 
Education.
    Katrina has impacted our children in many ways, not just 
the physical dislocation. The greatest thing is the 
psychological aspect. The children in our schools have spent 
most of their lives usually in one elementary and one high 
school. They have built friendships and bonds with fellow 
students and faculty. Their world is right now upside down. 
They find themselves in strange, sometimes overcrowded and 
makeshift classrooms. Right now our schools have opened our 
doors and schools throughout the State as well as throughout 
the country. Some of our classrooms have 35, 40 students in 
their classrooms, and this is not a good situation. But we had 
to take these students in until we could make other provisions 
with temporary classrooms, which we hope we will get soon.
    Not only have these students lost their homes, but they 
have lost the most important thing, which is their schools. The 
main concern of the parents is to return to their schools. They 
want to get back to their schools where they have their same 
friends, their same teachers, their school activities. And it 
is vital that we do this to relieve the pressure and the 
uncertainty of parents that they are experiencing now. However, 
many of these parents do not know whether they will have a home 
to go back to, a school, or even a job to return to. Placing 
their children right now in a stable and loving and safe 
environment is very important and very imperative. Children who 
are happy and cared for, if they are cared for and they are 
happy, parents can now focus on rebuilding their lives.
    As was said before, in south Louisiana we have a unique 
situation. About one-third of the students attend nonpublic 
schools. These students in our nonpublic schools very often 
come from low- and middle-income families, and their families 
are making a great sacrifice to send their children to a school 
of their choice for academic, religious, or safety reasons.
    The nonpublic schools in Louisiana and the surrounding 
States have opened their doors to the displaced students. In 
Baton Rouge alone--we happened to be the first stop for most 
people as they left New Orleans. We are about 70 miles outside 
of New Orleans. There was not a hotel room to be gotten. People 
are staying in any friend or family's home that they could get 
into. Shelters were all around town. We have a system of 16,000 
students normally. Right now we are up to 20,000. We took in 
4,000 students more than we normally have. This has put a great 
strain on all of our faculty and our teachers and the aides in 
the schools, and administrators. Our office has taken in the 
Archdiocese of New Orleans, so the archdiocese office is 
operating out of our office. We are happy to do this. As soon 
as the storm struck, we knew that people would be--even before, 
people were evacuating. Labor Day came along, and I am very, 
very proud of the fact that our principals and their staffs and 
parents worked the entire Labor Day weekend, registering 
students, providing uniforms, providing clothes, providing 
shelter, anything that they could do to help. And this was 
very, very welcomed by the people who were evacuating.
    Tuition and fees were waived and deferred in most 
instances. We hoped that down the road we would be able to get 
some assistance when we had to have the money to pay the extra 
teachers that we were going to have to hire and that we have 
already hired.
    We are trying to hire as many teachers as possible from the 
schools in the Archdiocese of New Orleans. Parents, as I said, 
are supplying everything that they can to our students, even 
though we need other supplies.
    Preparation is in progress now to open up additional 
classrooms. However, the situation is very fluid. People are 
moving back to the greater New Orleans area as the mayor and so 
forth were saying that it was safe to come back. Now some of 
those very same people are moving out of New Orleans and the 
surrounding areas. I just received a note a little while ago 
that it appears that Rita is taking a turn more toward 
Louisiana. I am not sure how accurate that is, but you can 
imagine the impact that this is going to have on everyone, 
especially the children.
    We were assuming that students coming from the Houston 
shelters would possibly be coming back toward the Baton Rouge 
area. Now they are going north, so we are not sure where these 
people are going to be going.
    We strongly support the President's proposal to assist all 
students, regardless of the type of school they attend. This 
crisis is about children, not politics or money. A Katrina 
scholarship or an equal entitlement certificate or any other 
funding instrument that Congress deems appropriate will allow 
the displaced families to place their children in nonpublic 
schools similar to their former schools.
    We yield our faith in you, free of bureaucracy, yet secure 
from fraud, to accomplish this. The families need financial 
assistance now because some families have paid their tuition in 
the schools where they were in the New Orleans and surrounding 
areas. Some have not paid their tuition because they do not 
have to pay on a yearly basis. They have no money. They have no 
jobs. Many have no homes, and they don't know when they are 
going to get back.
    So the schools that are now accommodating these students 
need assistance, emergency assistance for the expenses that 
they have incurred. I met with our principals last--actually, I 
met with them on Monday. We had a special meeting, and I asked 
them to give me some idea as to what their expenses would be if 
we looked at hiring extra counselors, extra teachers, extra 
aides because of overcrowded classrooms, looking to getting 
additional temporary buildings. And it came up to a little over 
$2 million that would be incurred just in our diocese with our 
32 schools. And we have accrued this, we will be accruing these 
debts, and we look to you for help.
    The situation is critical, and our focus is definitely on 
children and their immediate needs. Without financial 
assistance to the nonpublic schools, we may not be able to 
continue to accommodate the students as they come, and this 
would put an even greater strain on the public school system 
that is experiencing the same type of challenge that we are.
    I know that each of you here today hears the cries of all 
these families and these children. People from across the 
country have reached out to help, from as far away as Delaware, 
Michigan, California, offering help of all kinds. On the local 
level, psychologists and doctors have set up 1 day a week to go 
into the schools after school to make themselves available to 
the parents and the children because of the trauma they have 
experienced. This is being offered free of charge.
    Our school lunch program is doing as best we can. We 
stopped salad bars. We don't have the frills. We are doing 
basic lunches. It is not always easy to get the food we need 
right now, the types of food that we need, but our children are 
being fed a meal that they can go home and feel like they have 
had one good meal a day.
    We thank you and have the utmost confidence that as 
Americans and as leaders with moral values and the resolve of 
the Nation we will meet the needs of these students at present 
and get them back to the schools where they long to be. And I 
acknowledge and I commend you for allowing me this opportunity, 
and I thank President Bush for acting so quickly, and we look 
forward to your prompt response to our request.
    Thank you and God bless you.
    [The prepared statement of Sister Green follows:]

          Prepared Statement of Sr. M. Michaeline Green, O.P.

    Good afternoon, I am Sister M. Michaeline Green, O.P., the 
Superintendent of Schools for the Diocese of Baton Rouge, Louisiana. I 
am also the chairperson of the Nonpublic School Commission of the 
Louisiana Department of Education.
    I want to thank you for your immediate response to the request by 
Darlene Cilento of St. Rose Academy, Mayfield, PA. I am honored and 
feel privileged for the opportunity to come before you today in an 
effort to help all the students affected by Hurricane Katrina.
    Its impact on these children's lives is more than just the physical 
dislocation. There is also the psycological aspect. These children have 
spent most, if not all their lives in one school. They have built 
friendships and bonds with both fellow students and faculty. Their 
world is now upside down. They now find themselves in strange, 
sometimes, overcrowded and makeshift classrooms, with unknown peers, 
and different instructors. Not only have they lost their homes, but 
they have lost one of the most important aspects of their lives, their 
school. The main concern of the parents is to return their children to 
the schools that they had attended with familiar surroundings, long-
time friends, educators and school activities. The rebuilding of these 
destroyed schools is vital in order to relieve the pressure and 
uncertainty that parents are experiencing. However, many do not know if 
and when they will have homes, schools, and jobs to return to. Placing 
these children in a stable, loving, and safe environment now is 
imperative. When children are cared for and happy, parents can focus on 
rebuilding their lives.
    Louisiana has a unique situation in that one third of all students 
attend nonpublic schools compared to the national average of 11 
percent. In four of the severely impacted counties (called parishes in 
LA) around New Orleans, approximately 61,000 students of the 187,000 
total student population attend nonpublic schools from pre-K through 
grades 12. Most of these students come from low- to middle-income 
families who are making a great financial sacrifice to send their 
children to a school of their choice for academic, religious, and 
safety reasons.
    Nonpublic schools across Louisiana and the surrounding States have 
opened their doors to the displaced students. Parents in these schools 
have supplied uniforms, school supplies, clothing, food, and housing. 
In our diocese alone, we have had a 25 percent increase in enrollment 
due to Katrina. Presently the situation is very fluid, both in 
population and in circumstances, as areas of Greater New Orleans have 
been opened up on a daily basis, and now we are faced with the threat 
of Hurricane Rita. We are responding to the here and now, and 
adaptability is required of both parents and schools. Schools and 
students are challenged with trying to put a large population into a 
smaller one.
    A scholarship or ``An Equal Entitlement Certificate'' will allow 
the displaced families to place their children in nonpublic schools 
similar to their former schools while the rebuilding is taking place. 
The families need these certificates because some families may have 
paid their tuition to a school that is no longer there, or, if they 
haven't paid their full tuition, they may have no employment or means 
to pay. Also the schools that are now accommodating these students MUST 
be reimbursed for the expenses that they have accrued and will continue 
to accrue. Funding is needed to hire additional teachers and aides, 
provide additional classrooms and transportation, not to mention added 
janitorial expenses and utilities.
    This situation should be addressed and funded immediately, along 
with the proposed ``equal entitlement certificates.'' Without this 
funding, nonpublic schools may have to turn away some or all of these 
61,000 displaced nonpublic students, and this would put an even greater 
strain on the public school system which is experiencing the many of 
the same challenges as the nonpublic schools.
    I know that each of you here today hears the cries of the displaced 
families, and recognizes the need to assist ALL students no matter 
where they are enrolled. Furthermore, I am confident, in our compassion 
as Americans and as leaders with moral values and with our resolve as a 
Nation, we will meet the needs of these students at present and get 
them back into the schools that they so desperately long for.
    I want to acknowledge and commend each of you on this committee, as 
well as, President George Bush for your prompt and tireless effort in 
this dire situation. May God Bless You and God Bless America. Thank 
you.

    Senator Alexander. Thank you, Sister. My impression is--and 
I am sure all the Senators feel this way--if we are able to do 
our jobs half as well as you have done yours, we will do real 
well in terms of responding to this. So we are deeply grateful 
to you for what you are doing, and we admire your compassion 
and your efficiency and your care for children.
    Now, my questions are going to have to do with details. We 
want to move rapidly. We have a responsibility. We are dealing 
with a lot of the taxpayers' money. The President's proposal is 
$2.6 billion, and we want to spend it wisely and make sure we 
do not create the wrong incentives, for example, but the right 
incentives. And I think we want to make it simple. We do not 
want to contribute to the difficulty. We want to make it 
simple.
    So let me ask you a few questions, Sister. In Baton Rouge, 
are there children who do not have schools to go to?
    Sister Green. There are still children who have no schools 
to go to. We are opening up extra classrooms as I speak. We 
opened up our schools the day after Labor Day. We were out for 
5 days, and we opened up the day after Labor Day, and that is 
when we took on a daily basis now up to 4,000 students.
    In working with the Archdiocese of New Orleans, we are now 
ready to open up classrooms in some of our schools where we had 
extra wings that were going to open up for other reasons down 
the road.
    Senator Alexander. Let me follow that with this, and maybe 
Mr. LaFon, maybe any of you would want to respond to this. As 
we think about how to financially help. Please help us think in 
concepts. We are thinking about a year. The thinking here is 
that after a year, if a child is still in Knoxville or Memphis 
or Texas or Minneapolis, well, then, they are a Texan. 
Hopefully, they will have a job and be paying sales tax and be 
a productive citizen and they will be able to be absorbed by 
the school. So that is one line of thinking that is in our 
mind.
    I think a second thing is I am hearing from Mr. LaFon and 
from others who have testified that they are busy trying to 
open the schools in these four most affected parishes in 
southern Louisiana. Didn't you say St. Bernard's Parish might 
want to be open in October?
    Mr. LaFon. No. St. Tammany and Jefferson.
    Senator Alexander. St. Tammany and Jefferson. Let's say 
they are successful in opening in November or December or 
January. Now, isn't it true that we do not want to create an 
incentive for them to stay in Baton Rouge longer than--that. It 
might make it difficult for them to reopen the schools in 
Jefferson Parish. Am I correct about that?
    Sister Green. That is correct, and it is a dilemma because 
right now we are hiring extra teachers. We are trying not to 
provide too many extra classrooms. We are trying to use as many 
buildings as we have present, because we know and we want these 
children to move back as quickly as possible.
    Senator Alexander. Are you hiring teachers for a year or 
for a semester?
    Sister Green. We are doing it without any contract. We are 
trying to hire the teachers who were already employed in the 
Archdiocese of New Orleans.
    Senator Alexander. Would it make sense--let's say we have a 
certain amount of money to spend per student. Let's just say 
$7,500 because that is what the President's proposal was. Would 
it make sense to spend more of that in the first semester and 
less of that in the second semester? In other words, if it were 
$5,000 in the first semester and $2,500 in the second semester, 
would that get you more money more rapidly to help the 
displaced children, but at the same time not create an 
incentive in the second semester for students to continue to be 
displaced while their hometown schools are trying to open?
    Mr. LaFon. Senator, if I might, when you talk about the 
$8,500 in the first semester, it makes lots of sense, and I 
will tell you why. We know the numbers are going to fluctuate. 
As Jefferson Parish begins to open up again, certainly a 
certain amount of people will go back. Certainly a certain 
amount of people will still be displaced because their homes 
have been destroyed, and that will be the same in New Orleans, 
and next year probably the same in St. Bernard.
    Does that mean we won't need some dollars for operational 
expenses in the second semester? I don't think we can say that 
because I don't think we have that magic ball sitting in front 
of us.
    Senator Alexander. Right.
    Mr. LaFon. But it is certainly something to consider. If 
you think about St. Charles Parish, we are hiring 25 additional 
teachers full-time because we think that amount of students 
will certainly be there all year. But we are also hiring 10 
teachers temporarily, actually through a temporary agency, so 
that they are not really receiving benefits and those kinds of 
things. And hopefully they will be able to go back to their 
jobs in the next coming months, at least by, say, Christmas or 
right after Christmas. And I think that is critical that we try 
to get people back in their jobs.
    Senator, we had 500 applications in the last 2 weeks for 
teachers who needed jobs--500.
    Senator Alexander. You had 500 applicants or----
    Mr. LaFon. Applicants. Teachers who----
    Senator Alexander. Who were out of work.
    Mr. LaFon. Yes, sir. And so----
    Senator Alexander. So you don't have any problem finding 
teachers right now.
    Mr. LaFon. No, and we do not have any problem finding 
quality, to be honest with you. There is no doubt about that. 
But, you know, truthfully, we need to get the Jefferson Parish 
and the St. Tammany Parish back up and running so that those 
people can get back to their jobs.
    Senator Alexander. And what assistance those parishes get 
is a different question in my thinking. We are talking here 
about 372,000 children who are displaced for up to a year. So 
this is somewhere away from where they were.
    Mr. Gates or Mr. Stein, do you have any comment on whether 
it would make any sense to--assuming we have a given amount of 
money, for argument's sake, $7,500, to spend more of it in the 
first two quarters and less of it in the second two quarters 
for the receiving school?
    Mr. Gates. Senator, it seems logical, but I want to remind 
everybody that we are hearing about people who are saying, ``We 
are not going back. There is nothing there. There is no reason 
to return.'' And I think the receiving districts need to be 
given help to make those accommodations.
    As I said to someone earlier, it is not just the school 
system that is affected, but the cities are affected. They are 
taking in thousands of people--jobs, businesses, all affected 
by Hurricane Katrina. So we need to look in a broad sense at 
how we are going to be helpful to everybody that is affected.
    Senator Alexander. Mr. Stein.
    Mr. Stein. It seems that the money should perhaps follow 
the student, and there is not much of an incentive for a 
student to stay in a place because of $7,500. The only 
incentive that would be created is if the family cannot find a 
job, they would have to move elsewhere. So I think this is--if 
I understand this proposal correctly, I think that this is 
somehow the Government's way to help us do our job of educating 
the children. And it used to be reading, writing, arithmetic, 
and now it is relocation and rebuilding. There are many other 
aspects now. It is not just textbooks. It is the whole child, 
the whole student, the whole family.
    So I think that the $7,500--which, of course, is not going 
to cover the costs even though that may be the statistic, but 
that doesn't cover the entire cost. I think any school would 
rather have the money quickly or as quickly as possible, and I 
think a simple form 6 months into the school year, is the 
student still there? If it is yes, it is yes. And if it is not, 
then there is no more funds.
    Senator Alexander. Thank you. My time is up.
    Senator Dodd.
    Senator Dodd. Well, thank you, Mr. Chairman. There are so 
many questions here, but first let me thank all of you for 
doing this. In fact, with all of the things you have got to do, 
coming up here and testifying--while I know it is important and 
we want to get your advice and counsel, it is pretty remarkable 
the task you have been asked to assume.
    I have an awful lot of questions. First of all, Sister, you 
have 4,000 students who have come into the Archdiocese of Baton 
Rouge?
    Sister Green. Right, and it is very fluid because Jefferson 
Parish was asking people to go back. And I went down there last 
week, last Sunday actually, and the garbage is still out 
uncollected. The debris is all in the roads. And it is not a 
very fitting place for children, but we do hope that they will 
go back quickly because that is our main concern.
    Senator Dodd. Now, when I was growing up and attended St. 
Thomas the Apostle School, as I recall, every student in my 
class was a Catholic. Most people probably assume today that 
all the students you are dealing with are Catholics. I suspect 
that is probably not the case.
    Sister Green. We have about a 10 percent nonCatholic 
population.
    Senator Dodd. How many of these 4,000 students are 
nonCatholics?
    Sister Green. Probably less than 1 percent.
    Senator Dodd. Less than 20?
    Sister Green. Less than 1 percent.
    Senator Dodd. Less than 1 percent.
    Sister Green. Yes.
    Senator Dodd. Is that a conditionality of coming into these 
schools in the Archdiocese of Baton Rouge?
    Sister Green. I am sorry. I did not get that.
    Senator Dodd. Is it a conditionality--are you having a 
condition to take in students that they have been students in 
parochial schools?
    Sister Green. That is our priority.
    Senator Dodd. It is a priority but not a condition 
absolute?
    Sister Green. Right now, it--last week it was a priority. 
Now since students are moving out, we would be glad to help out 
any students.
    Senator Dodd. How about your school in Memphis, Mr. Stein?
    Mr. Stein. It has never really come up in the 50 years we 
have been in business, because we have a full half-day of 
intense Judaic studies. But if the need arose, we would be 
happy to.
    Senator Dodd. To you, Mr. Gates, because the special needs 
are so incredibly important, tell me about what you have in 
place in terms of special needs teachers. And we were talking 
about applicants. I was surprised to hear Mr. LaFon talk about 
500 applications that have come in for teaching jobs. That is 
pretty surprising. How about special needs teachers in light of 
what we have all acknowledged--and Sister Green certainly 
talked about it very specifically, and that is, the emotional 
implications here with these kids. Do you have the personnel on 
hand to be able to provide for the emotional needs of these 
children?
    Mr. Gates. We have hired 40 teachers from the New Orleans 
area, in addition to 18 administrators and support personnel. 
As the numbers increase of those that are coming to us, we will 
need more. With the mental health needs, we will need more 
persons trained to provide the kinds of services that this 
trauma has caused. So there will be increased needs for 
funding.
    Senators, I assembled an album of pictures and articles I 
would also like to ask you to submit into the record.
    Senator Alexander. We would be happy to have that, Mr. 
Gates. Thank you very much. It will be a part of the record.

    [Editors Note-Due to the high cost of printing, previously 
published materials submitted by witnesses may be found in the files of 
the committee.]

    [List of newspaper articles and photographs in the album 
follow:]

      Newspaper Articles and Photographs From the Shreveport Times

                     WHEN KATRINA CAME TO LOUISIANA

Hospital staffers provide medical services to evacuees, by James 
Ramage, photograph by Greg Pearson

Katrina's toll goes beyond the material, by Mary Jimenez

Aftermath: Hurricane Katrina--Briefs--Red Cross still seeking disaster 
relief items--Groups asked to help provide transportation--Free online 
courses available for students--Labor Department seeks injured 
workers--From Staff Reports

`Three days of clothes . . . is all they have', by Teddy Allen

Fundraising efforts have begun, by Alexandyr Kent--How you can help--
Katrina Relief Fund--More shelters open--a day of prayer, photograph by 
Mike Silva

Students from south La. enroll at local schools, by Melody Brumble and 
Raechal Leone, photograph by Jim Hudelson

Photograph by Greg Pearson

Colleges, universities rush to reopen registration for displaced 
students, by Melody Brumble

Hurricane Katrina Capsules--Library branch feeding, entertaining 
refugees--State seeks help from medical professionals--How to donate--
To donate money--Fundraisers, photograph by Irwin Thompson/AP

LSU players affected by hurricane, by Glenn Gullbeau

Coaches have eyes on field, family, by Brian McCallum

Caddo and Bossier work to provide more shelters, by Don Walker, 
photograph by Jim Hudelson

Evacuees seek temporary jobs, by Loresha Wilson

Photograph by Michael Ainsworth/AP

Evacuees' long-term stay being planned, by Keri Kerby

Retailers move to help victims of the hurricane, by Michelle Mahfoufi

Faces of Disaster, photographs by Jessica Leigh, Eric Gay/AP, M. Scott 
Mahaskey/AP, and Robert Ruiz

Job Fair

Louisiana Tech deadlines

Colleges, universities continue to enroll displaced students, by 
Raechal Leone and Melody Brumble

Harry Connick Jr. praises hometown, to join benefit concert, The 
Associated Press

Job fair for evacuees

Planning for the future, photograph by Robert Ruiz

Children of the storm, photograhp by Stan Carpenter

Hurricane silences legendary jazz city, by Howard Reich, Knight Ridder 
Tribune News

Inmate evacuees arrive in area, by Don Walker, photograph by Shane 
Bevel

SUSLA Helping Hands Team, photographs by Mike Silva and Robert Ruiz

Photograph by Jessica Leigh

`Gatemouth' dies in Texas at 81, by Doug Simpson, The Associated Press

Free studio spaces open for displaced artists

Mosquito spraying to begin in N.O., by John Hill

Photograph by Greg Pearson

More than 45,000 hotel rooms closed by Katrina, The Associated Press

Louisiana death toll shoots up, by Adam Nossiter, The Associated Press, 
photograph by Shane Bevel, The Times

    Senator Dodd. Are you notifying parents about these 
opportunities?
    Mr. Gates. For?
    Senator Dodd. For the counseling?
    Mr. Gates. Yes, as they come, they are being notified.
    Senator Dodd. Very, very good.
    In your parish, Mr. LaFon, how many schools--are there 
schools that are just not going to reopen?
    Mr. LaFon. No. We had damage to all of our schools, but 
they are all reopening. We have 19 schools, 2 high schools, one 
on each side of the river. We are up and running pretty good as 
far as our schools go. We did have the damage, still do, but it 
is being corrected as we----
    Senator Dodd. You are getting an influx of 1,300 additional 
students.
    Mr. LaFon. Yes, sir.
    Senator Dodd. And how about the students who might have 
evacuated, are they back?
    Mr. LaFon. At this point we are at about 88 percent of them 
back, and we expect it to get to about 92, 94 percent, because 
we are hearing from the parents that they are certainly 
returning over the next few days. So we think we are going to 
be in pretty good shape there.
    Senator Dodd. Give us a brief picture, if you would, of the 
other parishes, the most seriously impacted parishes by the 
floods. Which ones are they and how many schools are destroyed, 
in effect? I heard some number earlier. I heard some number 
like 750 schools, which seems like a very large number to me.
    Mr. LaFon. I probably will not comment on that number, 
because that sounds high to me too, but I will tell you, St. 
Bernard Parish, that school system, that parish is total 
devastation.
    Senator Dodd. Gone.
    Mr. LaFon. Plaquemines Parish----
    Senator Dodd. How many schools in that parish?
    Mr. LaFon. I want to say there was about 18 schools in that 
parish. Do not quote me because I am not sure.
    Senator Dodd. OK. Go ahead. Tell me the other ones.
    Mr. LaFon. Plaquemines Parish probably lost about maybe 
half its schools. It probably has two or three schools up 
toward the top part of Plaquemines Parish that will be able to 
be open.
    Senator Dodd. How many again?
    Mr. LaFon. I would think they are going to open about 3 or 
4 schools.
    Senator Dodd. Out of how many?
    Mr. LaFon. I think about 10. It was a small district, 
Plaquemines is a small district. St. Tammany, on the other 
hand, is a large district of better than 20,000 students, and 
as I understand it, they have probably maybe 15, 20 schools 
with serious damage, and then some other damage as we also----
    Senator Dodd. Again, roughly how many schools in St. 
Tammany Parish?
    Mr. LaFon. Senator I really want to put a number on it. I 
am telling you, if I have 10,000 kids and I have 20 schools 
approximately, then they have got to have 50 schools.
    Senator Dodd. OK.
    Mr. LaFon. And in Jefferson Parish they have 50,000 
students, so you know, you can figure that they must have close 
to 80 schools or more.
    Senator Dodd. Again, what are the numbers in Jefferson 
Parish?
    Mr. LaFon. Quite a few schools in Jefferson Parish were 
damaged quite severely. I had a conversation with Dr. Diane 
Roussel the other day. She did not really give me a number, but 
she said she was going to be able to open quite a few of her 
schools, so I am going to tell you probably around 40 to 50 
percent were seriously damaged.
    Senator Dodd. Are you including nonpublic schools in those 
numbers or just the public schools?
    Mr. LaFon. Not really. I am not. I will tell you this, 
approximately half the students we are taking in, of that 
1,300, 50 percent of them are from private schools. I am sure 
that they are going to try to get up and running as quick as 
possible, and meanwhile we are going to make sure those kids 
get a great education.
    Senator Dodd. I wonder if you might, we discussed or 
mentioned earlier the possibility of having the Department of 
Education deal with some of the construction issues as opposed 
to FEMA, with all due respect to FEMA. Do any of you have any 
reactions to that?
    Mr. LaFon. FEMA moves mighty slow. I mean I have been 
working with----
    Senator Dodd. That would be the biggest understatement of 
the day here.
    [Laughter.]
    Mr. LaFon. We have been working with FEMA for about 3 weeks 
trying to get these travel trailers up for our teachers, and I 
mean, it just seems like, well, everybody keeps talking about 
they are cutting the red tape. All I can tell you is I see red 
tape, blue tape, yellow tape. I mean there is a lot of tape out 
there that school systems are going through. There has to be a 
better way for us to go and make things happen a little faster.
    Senator Dodd. You would prefer to maybe see the Department 
of Education take on that responsibility?
    Mr. LaFon. I prefer somebody to make it happen, and that is 
what we need.
    Senator Dodd. Mr. Gates.
    Mr. Gates. Sir, I do not have any particular thoughts about 
that. I am a classroom teacher and I focus on classroom 
instruction, but it would seem as if, just as Dr. LaFon said, 
if we are really serious about helping people, we are going to 
move expeditiously to see that needs are being met, children 
and their families, that they have their needs met.
    Senator Dodd. Sister Green, of the 4,000 students, is the 
Archdiocese of New Orleans being financially helpful to the 
Archdiocese in Baton Rouge?
    Sister Green. I do not think so. They do not have any more 
money than we have at this point. They have probably far less, 
they have lost so much.
    Senator Dodd. How do you do your tuition? Do you require a 
certain percentage of the tuition to be paid as school starts?
    Sister Green. Many of our schools have what we call prepaid 
tuition. They pay up front at the beginning of the year. It is 
the same thing in New Orleans, and other schools it is on a 
monthly basis.
    Senator Dodd. You have 32 schools in your Archdiocese. How 
many schools are there in the Archdiocese of New Orleans?
    Sister Green. They have 105.
    Senator Dodd. How many of those 105 were adversely affected 
to such a degree they are closed or would not open?
    Sister Green. 105,000. Excuse me?
    Senator Dodd. How many of those 105 schools in New Orleans, 
the Archdiocese of New Orleans, were either closed or so 
damaged that they are not likely to open again as they 
presently are?
    Sister Green. I would think that probably half of them more 
than likely. Jefferson Parish was not, as you referred already, 
not that greatly affected. But the schools in New Orleans, 
there were some areas that were not under water. I really do 
not know the numbers, but it is hard to tell. The schools in 
St. Bernard, they are not there. St. Tammany is half and half.
    Senator Dodd. What are you hearing from your families of 
these 4,000, their likelihood of moving back should they be 
able to? Is there similar desire to go back to New Orleans, in 
that area, or are they planning on staying in Baton Rouge?
    Sister Green. There are families who are trying to go back, 
but many of them do not have work. Their companies are no 
longer there. Many companies are moving to Baton Rouge, they 
already have a branch office there, to Houston, to other 
places. Some say that they are just going to stay because they 
do not have any choice, their homes are gone.
    Senator Dodd. Thank you all again very much, and we will 
continue to work with you and listen to you in terms of your 
advice and how this can work and make sense. I think Mr. Gates 
just said it well, we have to deal with the totality of this, 
and keep it simple as well. I agree with the Chairman on that.
    We do not want to make this terribly complicated, and we 
want the incentives to be right. Senator Sessions pointed that 
out, that that is in our interest. We want to give people the 
opportunity to get their lives together, and we do not want to 
penalize them because they made a decision to go someplace 
else. We do not want to penalize them if they find they cannot 
go back. We want to try and be understanding and as sympathetic 
about what a family needs to do to stay together and get back 
on their feet again, without trying to manage what their future 
ought to be, except to the extent we can help them make those 
decisions, what they perceive to be in their best interest and 
the best interest of their children.
    I think that is what we ought to be looking at here, rather 
than trying to decide for them what their future ought to be, 
directing either they go back home or stay where they are, but 
allowing them that flexibility to get on their feet again.
    I like the idea as well--and we have talked about education 
here and this moving around and letting the resources follow 
the child--for instance, so that people can start making 
decisions about where to live, and getting some financial help 
to make that decision. I think first of all that would be an 
asset, moving some resources into the marketplace, or if 
someone had a place they could fix up a little bit knowing 
there is someone who could rent it, that generates some jobs, 
people working, to get a ripple effect of these things. So we 
need to be flexible in that regard, so I think your point is 
well taken.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Dodd.
    We will wind up our hearing with questions from Senator 
Sessions.
    Senator Sessions. Thank you.
    Just to follow up, Sister Green, on Senator Dodd's 
comments, you are offering to take some of these displaced 
students, but you feel and the students feel that they should 
be able to share in moneys that will be aiding students, 
whether they go to your school or the public school.
    Sister Green. Exactly.
    Senator Sessions. And some of the parochial school kids in 
New Orleans will be going to public schools and the money would 
follow them there, and some might choose to come to your 
school. It would certainly relieve stress, would it not, on the 
numbers in some really crushed public schools?
    Sister Green. Exactly.
    Senator Sessions. Mr. LaFon, tell me about these teachers. 
Do they have contracts in New Orleans in some of these 
devastated parishes? Are they paid? Are they not being paid? 
What is the status?
    Mr. LaFon. Senator, because of the laws, if a teacher takes 
a full-time job in my district and was working, say, in a St. 
Bernard or whatever, by law they have to resign from that 
position and take the job with us, if that is full time. If we 
are hiring people temporary and there are no retirement 
benefits, etc., associated with it, then it is okay.
    Senator Sessions. So most of these 500 teachers I presume 
are teachers whose schools are not closed--or maybe their home 
was lost and they would like to move in a safer area or 
something?
    Mr. LaFon. Both private schools and public school teachers, 
and the quality was really high, and so you know, we hired 25 
of them, like I said, then we have 10 that are temps, and we 
are going to have to hire more because we do not think that 
they are all just going to leave us in the next 6 months. We 
believe that most of these people will keep these children in 
St. Charles Parish Public Schools for this year.
    Now, does that mean we do not think the numbers will 
fluctuate? Of course we know that they are going to fluctuate.
    Senator Sessions. I am curious about if you were in one of 
these school systems that is basically dysfunctional now, is a 
teacher receiving a paycheck from the system or are they not 
receiving a paycheck?
    Mr. LaFon. Up to now they have received a paycheck, and I 
believe the other big key is that for those school districts 
that are in the situation that the St. Bernards and the 
Jeffersons and the Orleans are, is they are trying to make sure 
that those teachers can at least continue to get their health 
benefits, and also their retirement benefits. I think that is 
critical.
    Senator Sessions. So it is not known how long they will 
continue to be paid?
    Mr. LaFon. I do not have that answer. I assume that it will 
be just another month or 2, because sooner or later the State's 
going to have to decide to send those dollars elsewhere.
    Senator Sessions. Each of you have taken quite a jolt in 
receiving this number of students. It is unlike anything you 
would normally expect. Sometimes enrollment is up a little and 
down a little, but I guess it is what, 10 percent or more for 
you, Mr. LaFon?
    Mr. LaFon. Actually, it is closer to 15 percent increase in 
our numbers.
    Senator Sessions. That is a big amount.
    I am trying to figure out, Mr. Chairman--and this is poor 
math. People are telling me they want to help, they want to 
help, but do not be wasting our money, and do the right thing, 
and manage well and all of that. It seems to me that this 
figure, as I run the numbers, is a pretty generous figure, 
7,500. If you have 1,300 students at $7,000 per student, not 
even the 75, that would be about $9.1 million. If you did 35 
teachers at $50,000, that would be about 1.75 million. If you 
bought 18 buses at 100 grand--they may be more than that, I do 
not know--that would be about 1.8 million, and books, a third 
of a million or half a million. So that totals maybe 4 or so 
million dollars, but you would be receiving a pretty generous 
amount it seems to me.
    Are there other things--I know you have counseling, you 
have mentioned, Mr. Gates, and there would be other factors 
that will come up as an expense. Look at what we are doing, 
this would appear to me to be a fair and generous Federal 
Government compensation.
    Mr. LaFon. And I would hope the State would put up some 
money too. I do not think it should just be the Federal 
Government. I have, if you would like----
    Senator Sessions. Mr. LaFon, let me ask you about these--I 
guess I do not want to get too far off base but I am thinking 
about these schools where the kids left. Now, the school 
normally gets paid, does it not, based on average daily 
attendance? At least in Alabama, they do.
    Mr. LaFon. Yes, sir.
    Senator Sessions. So they are not getting any money from 
the State and those kids are all gone, they are closed, and 
then we are giving you compensation. But those school systems 
that are whacked, flooded, they have got a real problem, do 
they not?
    Mr. LaFon. They are going to have a real problem. Now, the 
private schools, you know, they have that tuition. I do not 
know what happened there. I am not sure. As far as I know, no 
one got their tuition back. But the bottom line with the public 
schools is that what is going to happen, at least as we 
understand it from the State, is that they are going to try to 
keep some things in place, at least allow those dollars that 
the school systems need for those teachers with regard to 
health benefits and retirement benefits, as I understand it 
will try to be in place.
    Jefferson Parish is trying to get up and running again, so 
is St. Tammany, so that they can begin receiving those dollars 
again.
    Now, I know that the State superintendent--and Senator 
Landrieu mentioned that he is a good man, and he is a good man, 
but his hands have been tied because lots of what he is trying 
to do is either controlled by the State Board of Education or 
by the State legislature, so he has not had a lot of answers, 
and I am hoping that you can provide him with some direction as 
to what you can do at the Federal level and what maybe you can 
ask our State legislators to do as well.
    Senator Sessions. Thank you very much.
    Mr. Gates. Senator Sessions, please, sir, let me add that 
in addition to counseling there are other services that a 
special education child may require. We offer adaptive physical 
education, occupational therapy, speech and language services. 
So it is not just counseling, but there are other services, 
other moneys that would need to be made available to comply 
with IDEA.
    Mr. LaFon. Senator, if I might, I have a breakdown of the 
dollars that we figured it would take for these 1,300 students, 
including the things you mentioned, textbooks, instructional 
materials, computers, things that maybe we really have not all 
thought through, and this is what it takes to take care of 
those children and provide that quality education. So if you 
would like, I will submit this as part of the testimony, if you 
would like, sir.
    Senator Alexander. We would like to have that as part of 
the record.
    [The information follows:]

    St. Charles Parish Public Schools has collected data to inform the 
district of needed resources to provide displaced students with a high-
quality education. Approximately 1,300 students are expected to enroll 
in St. Charles Parish Public Schools by September 26, 2005. Attached is 
an account of expected resources needed.


------------------------------------------------------------------------
                                    Elementary     Middle        High
------------------------------------------------------------------------
Student Count....................          544          284          479
------------------------------------------------------------------------
Total Students...................                                  1,307
------------------------------------------------------------------------
Student books--core subjects          $136,000      $55,800     $114,960
 only--Math, Science, Social
 Studies, ELA....................
------------------------------------------------------------------------
    Total..................................................     $306,760
------------------------------------------------------------------------



------------------------------------------------------------------------
        Resources needed                 Cost                Total
------------------------------------------------------------------------
Instructional Materials
<bullet> Teacher Resource         $500/teacher......  $31,000
 (Manuals, Resource Materials).
------------------------------------------------------------------------
<bullet> Instructional Supplies   $600/teacher......  $37,200
 (markers, paper, folders,
 staples, filing cabinets, etc.).
------------------------------------------------------------------------
Computers
<bullet> 4 per classroom with     $6,300/classroom..  $390,600
 accessories and support.
------------------------------------------------------------------------
Projection Systems
<bullet> Projector, screens,      $3,600/classroom..  $223,200
 mounts, bulbs, amplifier, VCR,
 etc..
------------------------------------------------------------------------
Furniture
<bullet> Student desks and        $85/per student     $527,585
 chairs. Teacher desks & chairs.   desk &chair.       $12,400
                                  $200/per teacher    $539,985
                                   desk & chair.
------------------------------------------------------------------------
Portables
<bullet> 10 portables...........  $25,500/portable x  $255,000
                                   10.
  Set up--(lease)...............
Operational.....................  $3,250 portable/    $260,000
                                   month.
                                  $26,000/portable/8  $515,000
                                   months.
------------------------------------------------------------------------
Supplies for sp. needs (stander,    ................  $10,000
 changing table, lift, assistive
 communication devices,rifton
 chair).
------------------------------------------------------------------------
Personnel--salaries and benefits
<bullet> Teachers...............  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a39591e39793">[email&#160;protected]</a>,000.........  $2,480,000
<bullet> Gifted teachers........  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f2c1b2c6c2">[email&#160;protected]</a>,000..........  $120,000
<bullet> Talented Teachers......  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6153215551">[email&#160;protected]</a>,000..........  $80,000
<bullet> Para-professionals for   <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aa9eea989a">[email&#160;protected]</a>,000..........  $80,000
 sp.ed..
<bullet> Nurses.................  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b081f08480">[email&#160;protected]</a>,000..........  $40,000
<bullet> Counselors.............  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91a4d1a5a1">[email&#160;protected]</a>,000..........  $200,000
<bullet> Cafeteria Workers......  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1124512321">[email&#160;protected]</a>,000..........  $100,000
<bullet> Administration.........  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f1c4b1c7c4">[email&#160;protected]</a>,000..........  $325,000
<bullet> Custodians (contracted)  8 x $200 day x 140  $224,000
                                   days.              $3,649,000
------------------------------------------------------------------------
Transportation..................  Per Day...........  Total cost per day
                                                       X 18 buses $7,049
<bullet> Bus Drivers............  $68...............
<bullet> Buses..................  $83...............
<bullet> Fuel...................  $225..............
<bullet> Insurance..............  $16.63............  ..................
                                  $391.63...........  $1,127,894
------------------------------------------------------------------------
Cafeteria.......................  After Federal       $33,280
Paper products and food.........   Reimbursement.
                                  $208/day X 160
                                   days.
------------------------------------------------------------------------
Uniforms........................  Per child.........
<bullet> Uniforms...............  $30 x 2 uniforms..  $57,180
<bullet> Personal Apparel         $100..............  $95,300
 (undergarments, coats, etc.).
<bullet> Shoes..................  $40...............  $38,120
                                                      $190,600
------------------------------------------------------------------------
    TOTAL OF ALL CATEGORIES.........................  $7,026,619.00
------------------------------------------------------------------------

    Senator Alexander. If I remember, you estimated that was 
about $7 million?
    Mr. LaFon. Seven million dollars and it is broken down for 
you.
    Senator Alexander. And 2 million, Sister, you said that was 
your estimate.
    Thank you very much. To clarify things a little bit, school 
funding, generally speaking, is the Federal Government pays 7 
to 9 percent for public schools, and the rest is State and 
local, and private schools, nonpublic schools are generally 
speaking on their own with the parents and in the case of the 
churches sometimes help.
    So what we are talking about here is an extraordinary 
situation where we have children who are supposed to be here in 
Orleans Parish or Jefferson or Plaquemines, and they are spread 
all over the country. There is really no program that exists to 
pay for that. So the idea is to say that while they are in 
Houston or Knoxville or Minneapolis, away from home, that they 
will be a national responsibility. That is the Government's, 
that is all of us to say for the schools that have opened their 
doors, whether the Jewish school or the Catholic school or the 
private school or St. Charles Parish, that we are going to try 
to find a way to help you pay for and be grateful to you for 
what you have done.
    And then that goes away after a year, and it might go away 
before that if these children go back to their homes. Then we 
go back to the traditional funding of schools, which would be 
in Plaquemines Parish or St. Bernard's. Fundamentally you would 
have State funding and local funding paying 90 to 92 percent of 
the cost of that. There are going to be some problems with that 
because the local tax base is not going to be what it was, but 
that sounds to me like that maybe the State is going to be 
called on to make a special effort there in those schools, just 
as the Federal Government is stepping up to make a special 
effort for the displaced children.
    I can pledge to you that we are going to go to work tonight 
and work over the weekend and next week in trying to see if we 
can agree among the Senators on the details of a simple plan to 
try to help all of Katrina's displaced school children. That 
will require passage in the Senate and then in the House, and 
then a signature by the President. Even if we are moving as 
fast as we can, that takes a little bit of time.
    That also gives us time to hear more from you if you would 
like. If on your way back you think, ``I wish I had said 
that,'' or if you come up with other figures or other ideas, or 
things we are likely to overlook, Kristin Bannerman is our 
staff director on this project here, and she has been in touch 
with you. If you can e-mail her or call her, she will get it to 
all of the rest of us, and we would welcome your additional 
comments.
    I think all of the Senators would want me to express again 
to you our admiration for what you are doing back home, and our 
appreciation for that, the extra hours and the extra care. You 
are setting a very good example for us, and we hope to follow 
your example. Thank you very much for making this special trip 
today.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Kennedy

    Thank you, Senator Alexander, for scheduling this 
afternoon's hearing on how we can best help the school children 
affected by Hurricane Katrina.
    Many of us have visited the Gulf Coast in recent days and 
seen the desperation. So much has been destroyed. But the 
spirit of the people we met remains strong, and their 
determination to recover and rebuild their lives inspires us 
all to help.
    In the wake of this tragedy, our committee has a special 
responsibility to try to help children stay on track in school. 
An obvious priority in the overall relief effort is to see that 
they don't lose a year in their education. We can help them 
return to as normal an environment as possible, as quickly as 
possible.
    Fortunately, the Nation as a whole is responding 
generously. Many of those in the storm's path left all they 
know to go to safe havens across the country, and without 
hesitation, people welcomed them into their homes and 
communities. Schools were often the first responders to these 
displaced families.
    Today, more than 370,000 students at schools in Katrina's 
path have been relocated. Principals, teachers, and 
superintendents across the country have pledged to accommodate 
all the students they can:

    <bullet> School districts in Houston have enrolled more 
than 18,000 students displaced by Hurricane Katrina.
    <bullet> Georgia schools have enrolled nearly 9,000 
students and Florida schools more than 6,000 students.
    <bullet> Communities have streamlined procedures to accept 
students, and Dallas has a hotline for parents to enroll their 
children.

    We owe each of these communities--and countless more--a 
debt of gratitude for pledging so much immediate help and 
attention. It's time for Congress to see that the schools 
serving them have the resources to deal with what may be the 
largest migration of schoolchildren in the Nation's history.
    We know that students are arriving at new schools without 
textbooks, school uniforms, or enrollment records. Children 
with disabilities have been left without their records and the 
individual plans they had for instruction, related services, 
and health care.
    Schools are struggling to address the emotional needs of 
children arriving and struggling to cope with the loss of loved 
ones and homes and pets. Teachers need specialized support and 
training to deal with the more serious and persistent traumas 
from Katrina.
    We know that many school districts were already slashing 
budgets and had too few resources before the hurricane. They 
need our help now more than ever. Mobile, Alabama is taking in 
a thousand students, even through several of its schools were 
themselves damaged by the hurricane. The superintendent there 
needs at least $400,000 to get the school district up and 
moving.
    I commend Senator Enzi and our other colleagues on the 
committee for their leadership in developing a bipartisan plan 
to respond to these challenges.
    The bill we've introduced will ease the transition of 
students displaced by Katrina now in new classrooms. It will 
support basic instruction, help purchase books and materials, 
and cover costs of transportation. If a school district needs 
resources to accommodate students in temporary facilities, this 
bill would deliver that help. Schools will qualify for 
additional funds to expand supplemental services or after-
school activities to include affected students.
    It will also ensure that schools have the resources to 
analyze the services that students with disabilities need, and 
provide the full range of services in the meantime.
    It's essential to respond swiftly to help schools elsewhere 
in the country taking in students displaced by the storm. But 
we can't forget the schools devastated in its wake.
    Schools remain closed throughout the Gulf Region. In 
Mississippi alone, 271 schools have been damaged or destroyed. 
In North Gulfport, Mississippi, the walls of Harrison Central 
9th Grade School collapsed.
    Vastly more damage has occurred in Louisiana. Jefferson 
Parish, so devastated by the storm, will try to re-open 42 of 
its 84 schools on October 3rd. But eight school buildings in 
the district will not be able to open this year. Thirty-three 
other buildings need repair, even though parts of them can be 
opened.
    Recently, the committee heard moving testimony from 
Superintendent Diane Roussel of the parish. She said, ``Money 
isn't always the answer to solving the ills in our public 
schools, but when we're talking about equipment, supplies, 
rebuilding, and maintaining our teaching workforce, money is 
the answer.''
    Our committee heard her plea. Our bill creates a special 
fund to re-start school operations in affected areas, and 
provide the essential foundation needed for school districts to 
get back on their feet. The Secretary of Education is 
authorized to provide immediate aid to areas devastated by the 
storm.
    Such assistance will help administrators and school 
personnel recover and recreate student data and information, 
re-establish their budgets, and renew teaching plans, 
curriculums, and equipment. Schools suffering lesser damage 
will be repaired and re-opened sooner.
    We're reminded by this disaster that schools are the heart 
of local communities across America. When schools open, 
families return, businesses returns, and lives begin to return 
to normal.
    I look forward to hearing testimony today from Senator 
Landrieu, Assistant Secretary Johnson, and others who have 
already done so much to respond. I also look forward to 
continuing our bipartisan work to deliver the help as soon as 
possible that Gulf Coast schools and students need to recover 
from this desperate situation.

Questions of Senator Enzi for Henry Johnson, Rodney LaFon, Sister Mary 
       Michaeline Green, Michael Stein, Daryl Gates, and Panel 3

                             HENRY JOHNSON

    Question 1. I understand that you have been on the ground in the 
areas directly affected by Hurricane Katrina. Based upon what you have 
observed, what is your assessment of the immediate needs of school 
districts that have been devastated and school districts receiving 
students that have been displaced?

    Question 2. I understand that up to 372,000 students have been 
displaced by Hurricane Katrina. Recognizing that a portion of the 
displaced students are students with disabilities, can you share with 
us what guidance the Department is providing to States regarding the 
provision of providing special education and related services for 
students with disabilities who are displaced by Hurricane Katrina?
    A follow-up question on the Department's efforts regarding students 
with disabilities, how does the Department plan to monitor the 
implementation of IDEA for students with disabilities displaced by 
Hurricane Katrina?

    Question 3. How are school districts recruiting and obtaining 
additional highly qualified teachers, including special education 
teachers to meet the demand of increasing enrollment? Additionally, how 
are school district recruiting and obtaining additional related service 
providers, such as occupational and speech language therapist, and 
counselors? Can you share examples or lessons learned at this point?

    Question 4. My understanding is in Louisiana there are 130,000 K-12 
students waiting to re-enter their home district. What barriers do you 
believe students will experience as they return and what additional 
services will students need as they return to their home school 
district and re-build after this devastating disaster?

                              RODNEY LAFON

    Question. As Superintendent of a school district that is enrolling 
a significant number of students displaced by Hurricane Katrina, what 
is your number one barrier when trying to re-open and what could this 
committee do to help you during this extraordinary time?

                      SISTER MARY MICHAELINE GREEN

    Question. Thank you for helping us understand the plight of pre-k 
through grade 12 students in Louisiana. You have proposed use of 
``Equal Entitlement Certificates'' to allow displaced families to place 
their children in non-public schools similar to their former schools. 
Please explain to us how these certificates would work?

                             MICHAEL STEIN

    Question. During this most difficult time, your schools ``whatever 
it takes'' policy is meeting the needs of displaced students and their 
families. As the President of the Margolin Hebrew Academy Board of 
Directors of a school that has experienced a 10 percent increase in 
enrollment, what is your most pressing need?

                              DARYL GATES

    Question. Thank you for sharing with us your assessment of the 
needs of students with disabilities. The committee is sensitive to the 
concern in the community that students with disabilities will not 
receive special education and related services in a timely fashion due 
to the large influx of students into particular areas. Your school has 
continued to provide such services. What can Congress do to help assure 
that students with disabilities, who may not have a copy of their 
Individual Education Program (IEP), receive special education and 
related services immediately to provide a free and appropriate public 
education?

                                PANEL 3

    Question 1. Recognizing there is a national shortage of teachers. 
How has your district or school been able to recruit and obtain 
teachers, including teachers for children with disabilities and related 
service providers, to meet the educational needs of the displaced 
students you have enrolled?

    Question 2. For public schools, we are continuing their base 
formula aid, but this is not the case with private schools. With 40 
percent of the children in New Orleans attending private schools, this 
is an issue that will need attention and solutions. Your ideas on how 
to assist these schools will be very helpful as we continue to look at 
the mid- and long-term needs of the hardest hit communities. What 
steps, if any, should the Federal Government take to assist these 
schools? I am particularly interested in your ideas that are under this 
committee's jurisdiction.

    Question 3. Knowing that this has been a very difficult time for 
all affected by this devastating event, how are you maintaining contact 
with your students, their families, and teachers to reassure them and 
instill confidences as they return to their school and community? What 
is necessary to reconnect with your students, their families, and 
teachers?

    [Editors Note: The responses to the above questions were not 
available at time of print.]
             Response from Shelby County Schools, Tennessee

Regarding Enrollment of Victims From Hurricane Katrina

    Shelby County Schools is a high growth school system located in 
suburban Shelby County, Tennessee. The school system adds over 1,000 
students every year and follows a vigorous facility construction 
schedule that generally sees the school system building one or two 
additional schools each year. Almost all of our schools were at full 
capacity before Hurricane Katrina students arrived.
    With all high growth situations, governmental entities always 
struggle to meet the demands placed on our operating budget. This is 
particularly difficult in the K-12 educational setting in Tennessee 
because our State funding dollars are based on previous year enrollment 
numbers. Therefore, a growth system like Shelby County Schools is 
always functioning in a budget of want and lack with more students to 
serve than the dollars are providing for service.
    This year, Shelby County Schools enrollment grew by our usual 1,000 
students, climbing to 45,947 students by the 20th day of school 
enrollment, 1,077 students more than our enrollment for the 2004/05 
school year. And, then our enrollment grew by over 600 additional 
students, with the influx of victims from our Nation's tragedy, 
Hurricane Katrina.
    Families came to all sectors of our school district from the 
ravaged coastal areas, living with relatives, encouraged by churches 
with open arms, and temporarily assigned out of harm's way to the 
Millington Naval Air Station from the New Orleans and Pensacola Air 
Stations.
    While we certainly are embracing our new families and students we 
must be conscientious concerning our limited resources, being sure that 
we have the funds to provide every child in our school district a 
quality public school education. The additional students to our 
district from Hurricane Katrina have impacted every segment of our 
district, geographically and functionally. We maintain very accurate 
enrollment figures for each school and grade, monitored by the school 
attendance office, principal and central office staff through daily 
communication. Our latest figures (9/28/05) indicate that 623 students 
are enrolled in Shelby County Schools from the coastal areas who are 
identified as ``displaced students.''
    Below is a sampling detail of how the influx of these students has 
impacted the Shelby County Schools district:

Teaching Staff and Pupil/Teacher Ratios

    The State of Tennessee has mandated class size requirements for our 
students in public schools and imposes large monetary fines for each 
violation. Because of our growth and budget concerns, Shelby County 
Schools must work carefully to staff as tightly to our projected 
enrollments as possible and still remain within those pupil/teacher 
mandates. We are now exceeding those pupil/teacher ratios due to the 
influx of displaced students. The only means of correcting this 
infraction is to employ additional teaching staff.

Transportation Services

    Because many of the displaced students are living in areas not 
previously used for residential purposes, (churches, hotels, shelters), 
our planning and transportation offices have had to work to alter our 
routing and mapping to accommodate the needs of these students. We have 
also added additional transportation routes, drivers and increased bus 
usage and fuel consumption.

Student Support and Instructional Services

    By working extended hours, central office and school offices of 
nutrition, counseling, records, testing and special education have all 
been outstanding in meeting the needs and challenges presented by the 
sudden influx of the students displaced by Hurricane Katrina enrolling 
in Shelby County Schools.
Nutrition
    Since each child qualified as a Homeless child, under Federal 
guidelines, each child is eligible for Free and Reduced Lunch services. 
Our school nutrition and central office nutrition staffs worked 
tirelessly to enroll each child in these programs and ensure that each 
child received the meals required at no cost to the students.
Counseling
    Our counseling team has been traveling throughout the district to 
meet the unique needs and challenges posed by the students from the 
storm. Even though we are a large school system with over 45,000 
students, our counseling staff is relatively small. This has presented 
a challenge to the staff, but they are working to ensure that each 
child receives the services and attention they need and deserve.
Testing and Placement
    Without available student records, we must individually evaluate 
and determine the appropriate instructional placement for each student.
Special Education
    Without available student records, our special education teachers 
and supervisors must evaluate every student with special needs and 
develop an Individualized Educational Plan to meet Federal requirements 
and make certain that all disabled students and students needing 
special services are accommodated.

                  Prepared Statement of Doris Voitier

 information regarding damages to the st. bernard parish public schools
    <bullet> 100 percent of our schools were severely impacted by the 
storm. We are the only school district in Louisiana that is unable to 
return and open at least some schools within the coming months.
    <bullet> Our priority right now is retaining an outstanding and 
loyal teaching corps.
    <bullet> Because our tax base has been erased and because State MFP 
funding must follow students, our coffers are bare. Many of our 
employees will remain with our district if we are able to extend their 
health insurance coverage through the remainder of this school year. We 
need Federal/State assistance to pay these premiums in their behalf.
    <bullet> Our entire bus and vehicle fleet was damaged by the storm.
    <bullet> Our students and employees are scattered across Louisiana 
and this Nation. Our seniors are particularly grieving for their 
schools. We must be able to provide some assistance to them and their 
parents in the form of waivers for graduation, mandatory testing, TOPS, 
etc.
    <bullet> We have proposed to the US Department of Education and to 
the Louisiana Department of Education a plan costing $34 million that 
will allow us to continue operations with a skeleton crew and continue 
to return employees to work in phases to an estimated 80 percent of 
staff as they rebuild our district so that we may open schools to 
residents as they return to St. Bernard Parish.
    <bullet> Our immediate goal is to open school on a temporary site 
provided through the assistance of FEMA for the children of 1st 
responders, refinery workers, school employees, and others who are 
returning to the parish first.
    <bullet> The return and rebuilding of the public schools is an 
economic development consideration. Families cannot return to St. 
Bernard until school is in session. We are the largest employer of the 
parish, and spending within businesses that are able to reopen will be 
severely impacted without our employees in St. Bernard to rebuild the 
schools and rebuild the community.

    Senator Alexander. The hearing is adjourned.
    [Whereupon, at 5:58 p.m., the subcommittee was adjourned.]

                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
